APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Eleventh Circuit (September 29, 2020) ....... 1a
Order of the United States District Court for the
Southern District of Alabama (April 1, 2019) . 18a
Order of the United States Bankruptcy Court for
the Southern District of Alabama Granting
Motion for Judgment on the Pleadings
(January 5, 2018).............................................. 25a
Order and Judgment of the United States
Bankruptcy Court for the Southern
District of Alabama (January 5, 2018) ............ 41a
REHEARING ORDER
Order of the United States Court of Appeals for
the Eleventh Circuit Denying Petition for
Panel Rehearing (November 3, 2020) .............. 43a
STATUTORY PROVISION
11 U.S.C. § 523 ........................................................ 45a
OTHER DOCUMENTS
Complaint Objecting to Discharge
(July 21, 2017) .................................................. 55a
Plaintiff’s Response to Defendant’s Motion for
Judgment on the Pleadings
(November 21, 2017) ........................................ 74a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(SEPTEMBER 29, 2020)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
In Re: JERRY DEWAYNE GADDY,

Debtor.
________________________
SE PROPERTY HOLDINGS, LLC,

Plaintiff-Appellant,
v.
JERRY DEWAYNE GADDY,

Defendant-Appellee.

________________________
No. 19-11699

D.C. Docket No. 1:18-cv-00027-JB-N
Bkcy. No. 17-bkc-01568-HAC-7
Appeal from the United States District Court
for the Southern District of Alabama
Before: WILLIAM PRYOR, Chief Judge., GRANT,
Circuit Judge., and ANTOON, District Judge.
 Honorable John Antoon II, United States District Judge for the
Middle District of Florida, sitting by designation.

App.2a

ANTOON, District Judge:
A Chapter 7 bankruptcy is intended to give the
debtor a fresh start, free from debt. The process usually
entails liquidating the debtor’s assets and applying the
proceeds toward satisfaction of creditors’ claims. If
all goes well for the debtor, the court will, in the end,
discharge the outstanding debts. But the Bankruptcy
Code, in 11 U.S.C. § 523(a), exempts certain kinds
of debts from discharge.
This is an appeal from an order rejecting a claim
that a debt was not exempt from discharge under
§ 523(a). SE Property Holdings, LLC (“SEPH”) brought
an adversary proceeding in Jerry Gaddy’s Chapter 7
bankruptcy. SEPH requested that the court declare
Gaddy’s debt to SEPH exempt from discharge under
11 U.S.C. § 523(a)(2)(A) and (a)(6) because Gaddy
fraudulently conveyed his property, thwarting SEPH’s
efforts to collect the debt. But the bankruptcy court
determined that Gaddy had not fraudulently obtained
money or property as required for exemption from
discharge under § 523(a)(2)(A) and that Gaddy had
not injured SEPH within the meaning of § 523(a)(6).
The court thus rejected SEPH’s claims, granted Gaddy’s
motion for judgment on the pleadings, and dismissed
the adversary proceeding. SEPH now appeals the
district court’s affirmance of the bankruptcy court’s
dismissal. We affirm.
I.

Background

Gaddy’s debt to SEPH arose from two business
loans made in 2006 by SEPH’s predecessor-in-interest,
Vision Bank, to Water’s Edge LLC. The loans were
made to fund a real estate development project in

App.3a
Baldwin County, Alabama. Gaddy, an investor in the
project, personally guaranteed repayment of the entire
first loan—$10 million—and $84,392.00 of the second
loan. In 2008, he reaffirmed those guaranties and
increased his obligation on the first guaranty to $12.5
million. About a year after the reaffirmances, several
of the more than thirty guarantors began missing
required capital contributions, and it became clear that
the development project was in trouble. The missed
payments prompted the bank to send a letter to the
guarantors warning of potential default.
In October 2009, less than two weeks after the
bank’s warning, Gaddy conveyed parcels of real property to a newly formed LLC, of which the initial
members were Gaddy, his wife, and his daughter;
Gaddy later conveyed his own membership interest in
the LLC to his wife and daughter. These were part of
a series of conveyances of personal assets—including
real property, cash, and business interests—that
Gaddy made over the next five years to family members
and entities that he controlled.
Water’s Edge defaulted on both loans in 2010,
and the bank demanded payment from Gaddy as a
guarantor. Four months later, the bank sued Water’s
Edge, Gaddy, and other guarantors in an Alabama
state court. Meanwhile, Gaddy continued to transfer
his assets. In December 2014, SEPH, by then having
been substituted for Vision Bank due to a merger,
prevailed in the Water’s Edge litigation. The state court
entered a judgment in favor of SEPH and against
Gaddy for more than $9.1 million. Gaddy made two
more transfers of assets that same month.
Eventually, SEPH sued Gaddy and his wife in
federal court to set aside Gaddy’s transfers of property

App.4a
under the Alabama Uniform Fraudulent Transfer Act
(“AUFTA”). After SEPH amended its complaint to add
Gaddy’s daughter and several business entities as
defendants in the AUFTA case, Gaddy filed for bankruptcy. This prompted SEPH to initiate the adversary
proceeding in the bankruptcy court objecting to the
discharge of its debt. In its complaint, SEPH described
Gaddy’s allegedly fraudulent transfers and asserted
they had damaged SEPH by “depriv[ing SEPH] of
assets of Jerry Gaddy that could be used to satisfy the
judgment entered in the Water’s Edge Litigation.”
SEPH’s complaint requested that the bankruptcy
court declare its Water’s Edge judgment against Gaddy
exempt from discharge under 11 U.S.C. § 523(a)(2)(A)
and (a)(6). In relevant part, these provisions state:
(a) A discharge under section 727 . . . of this
title does not discharge an individual debtor
from any debt—
....
(2) for money, property, services, or an extension,
renewal, or refinancing of credit, to the
extent obtained by—
(A) false pretenses, a false representation, or
actual fraud . . . ; [or]
....
(6) for willful and malicious injury by the debtor
to another entity or to the property of another
entity.
11 U.S.C. § 523(a)(2)(A), (a)(6). SEPH urged the court
to find that the debt was exempt from discharge
under § 523(a)(2)(A) because Gaddy had fraudulently

App.5a
transferred assets to “hinder SEPH’s collection.” And
SEPH claimed that the debt was exempt under
§ 523(a)(6) because through his transfers of assets,
Gaddy had “willfully and maliciously injured” SEPH
or its property.
A month after answering SEPH’s complaint,
Gaddy filed a motion for judgment on the pleadings.1
Gaddy argued that SEPH’s complaint failed to state
a claim under either § 523(a)(2)(A) or § 523(a)(6)
because he did not defraud SEPH in guarantying the
loans and because his conveyances did not injure SEPH
or its property. In its response to Gaddy’s motion, SEPH
argued not only that the Water’s Edge judgment debt
was exempt from discharge but also that “any fraudulent transfer judgment SEPH obtains against Gaddy
would be” exempt if, as SEPH claims, those transfers
were made “with a willful and malicious intent.”
And during oral argument on Gaddy’s motion, SEPH
requested leave to amend its complaint to add allegations that Gaddy’s conveyances resulted in a separate
debt to SEPH that was not exempt from discharge.
The bankruptcy court granted Gaddy’s motion for
judgment on the pleadings and dismissed the adversary
proceeding. The court found that SEPH’s § 523(a)(2)(A)
claim failed because SEPH did “not contend that the
underlying debt from the guaranties was obtained by
fraud or was anything other than a standard contract debt.” And the court similarly rejected SEPH’s
1 Federal Rule of Civil Procedure 12(c) provides: “After the pleadings are closed—but early enough not to delay trial—a party
may move for judgment on the pleadings.” Federal Rule of Bankruptcy Procedure 7012(b) incorporates Rule 12(c) in adversary
proceedings.

App.6a
§ 523(a)(6) argument because “[t]he underlying debt
is the result of personal guaranties, not any willful
and malicious injury by Gaddy.” Finally, the court
found no basis for amendment of SEPH’s complaint to
add a claim that a new, separate, fraudulent transfer
debt under the AUFTA was exempt from discharge,
noting that SEPH had “not provided any Alabama
law that [a] debtor/transferor who fraudulently transfers property is liable to a creditor for the value of
the transferred property.”
SEPH appealed the bankruptcy court’s decision,
and the district court affirmed, “agree[ing] with [the
bankruptcy judge] for all the reasons articulated in
his order.” It is from that decision that SEPH now
appeals.
II.

Standard of Review

“Judgment on the pleadings is appropriate when
material facts are not in dispute and judgment can
be rendered by looking at the substance of the pleadings and any judicially noticed facts.” Bankers Ins.

Co. v. Fla. Residential Prop. & Cas. Joint Underwriting
Ass’n, 137 F.3d 1293, 1295 (11th Cir. 1998). “We review

legal determinations made by either the bankruptcy
court or the district court de novo .” Crumpton v.
Stephens (In re Northlake Foods, Inc.), 715 F.3d 1251,
1255 (11th Cir. 2013). We also “review the legal significance accorded to the facts de novo.” Id. And in
reviewing a ruling on a motion for judgment on the
pleadings, “we must accept all facts in the complaint
as true and view those facts in the light most
favorable to the plaintiff.” Sun Life Assurance Co. of
Canada v. Imperial Premium Fin., LLC, 904 F.3d 1197,
1207 (11th Cir. 2018). While the Bankruptcy Code

App.7a
protects creditors harmed by a debtor’s “egregious
conduct,” statutory exemptions to discharge of debts
are construed strictly against the creditor and liberally
in favor of the honest debtor. St. Laurent v. Ambrose
(In re St. Laurent), 991 F.2d 672, 680 (11th Cir. 1993)
(quoting In re Britton, 950 F.2d 602, 606 (9th Cir.
1991)).
Generally, we review the denial of a motion for
leave to amend a complaint for abuse of discretion.

Fla. Evergreen Foliage v. E.I. DuPont De Nemours &
Co., 470 F.3d 1036, 1040 (11th Cir. 2006). But where

the lower court denies leave to amend based on futility
of the proposed amendment, we review that decision
de novo because it is a “conclu[sion] that as a matter
of law an amended complaint would necessarily fail.”
Id. (internal quotation marks omitted) (quoting Freeman v. First Union Nat’l, 329 F.3d 1231, 1234 (11th
Cir. 2003)).
III. Discussion
On appeal, SEPH challenges the bankruptcy
court’s rulings that SEPH failed to state a claim that
the Water’s Edge judgment debt is exempt from discharge under § 523(a)(2)(A) or (a)(6). It also challenges
the court’s ruling that the AUFTA does not support a
claim against Gaddy based on a “new” debt created
by the fraudulent transfers themselves. We address
these contentions in turn.
A. The Water’s Edge Debt Is Not Exempt From
Discharge Under 11 U.S.C. § 523(a)(2)(A)
Section 523(a)(2)(A) exempts from a debtor’s discharge “any debt . . . for money, property, services, or
an extension, renewal, or refinancing of credit, to the

App.8a
extent obtained by . . . false pretenses, a false representation, or actual fraud.” 11 U.S.C. § 523(a)(2)(A)
(emphasis added). That is, “it prevents discharge of
‘any debt’ respecting ‘money, property, services, or . . .
credit’ that the debtor has fraudulently obtained.”
Cohen v. de la Cruz, 523 U.S. 213, 218 (1998) (alteration
in original). The bankruptcy court and the district
court both concluded that SEPH’s § 523(a)(2)(A) claim
failed because the loans that Gaddy guarantied were
not “obtained by . . . false pretenses, a false representation, or actual fraud.” They were correct, and we
reject SEPH’s efforts to expand case law to encompass
the circumstances presented by this case.
SEPH does not—and cannot—argue that Gaddy
or the entity whose debt he guarantied fraudulently
obtained money or property from SEPH’s predecessor.
A state court awarded SEPH a judgment on its
ordinary breach of contract claim, and that judgment
makes no findings of fraud. The only fraud that SEPH
alleges— Gaddy’s conveyances of real and personal
property—happened years after Gaddy incurred the
debt by signing the guaranties. The money that the
bank loaned is obviously not traceable to those later
conveyances.
SEPH nonetheless asserts that Gaddy’s postguaranty transfers of assets render the judgment debt
exempt from discharge because Gaddy made those
transfers to hinder its collection. In doing so, SEPH
relies largely on a strained interpretation of, and
dicta in, the Supreme Court’s 2016 decision in Husky
International Electronics, Inc. v. Ritz, 136 S. Ct. 1581
(2016). But Husky does not advance SEPH’s position.
In Husky, the Supreme Court reviewed the ruling
of the Court of Appeals for the Fifth Circuit that the

App.9a
“obtained by . . . actual fraud” language in § 523(a)
(2)(A) requires a fraud that “involves a false representation to a creditor,” 136 S. Ct. at 1585, something
not typically present in the fraudulent transfer context.
Reversing the Fifth Circuit, the Supreme Court held
that “[t]he term ‘actual fraud’ in § 523(a)(2)(A) encompasses forms of fraud, like fraudulent conveyance
schemes, that can be effected without a false representation.” Id. at 1586. In doing so, the Court reached
the same conclusion the Seventh Circuit had reached
sixteen years earlier in McClellan v. Cantrell, 217
F.3d 890 (7th Cir. 2000), the other case upon which
SEPH heavily relies.
But the facts of Husky and McClellan are distinguishable, and their holdings are narrow. In both
cases, someone other than the bankruptcy debtor
initially owed a debt for which the bankruptcy debtor
later became at least partially liable. In Husky, a
corporation owed an ordinary debt to Husky. 136 S.
Ct. at 1585. A corporate insider then became potentially
personally liable to Husky under a Texas veil-piercing
statute when he “drained [the corporation] of assets
it could have used to pay its debts to creditors like
Husky.” Id. And in McClellan, the bankruptcy debtor’s
brother owed money on a loan. 217 F.3d at 892. The
brother fraudulently transferred the creditor’s security
to his more-than-complicit sister, the debtor, who
then became potentially liable to McClellan based on
her role in the fraud. See id. at 892, 895. Because of
the sister’s fraud, depriving McClellan of his security
interest, the sister’s debt was exempt from discharge
in her bankruptcy. Id. at 895.
Neither the Supreme Court nor the Seventh
Circuit eliminated the requirement that for a debt to

App.10a
be exempt from discharge under § 523(a)(2)(A), the
money or property giving rise to the debt must have
been “obtained by” fraud, actual or otherwise. Instead,
these Courts merely recognized the possibility that
fraudulent schemes lacking a misrepresentation—
including fraudulent transfers of assets to avoid
creditors—can satisfy the “obtained by” requirement
in some circumstances. See 136 S. Ct. at 1589 (noting
that “fraudulent conveyances are not wholly incompatible with the ‘obtained by’ requirement” of § 523(a)
(2)(A), though “[s]uch circumstances may be rare”);
McClellan, 217 F.3d at 895 (noting that although the
debtor did not obtain the money by a fraud against
her brother, she “would not have obtained a $160,000
windfall” but for fraud).2
SEPH seizes on this dictum and on the Supreme
Court’s comment that if a recipient of a fraudulent
transfer “later files for bankruptcy, any debts ‘traceable
to’ the fraudulent conveyance will be nondischarg[e]able under § 523(a)(2)(A).” Husky, 136 S. Ct. at 1589
(citation omitted). But these are not the facts of the
case before us, and nothing in Husky suggests that
a debtor’s fraudulent transfer of assets renders an
existing breach of contract judgment debt exempt from
discharge under § 523(a)(2)(A). In both Husky and
McClellan, fraudulent acts created or potentially
created the very debts at issue. See Husky, 136 S. Ct.
at 1585 (describing debtor’s “drain[ing]” of corporate
assets); McClellan, 217 F.3d at 895 (“The debt that
McClellan is seeking to collect from [the bankruptcy
debtor] (and prevent her from discharging) arises by
2 As to whether the “obtained by” requirement was satisfied under
the facts of Husky, the Supreme Court remanded to the circuit
court. 136 S. Ct. at 1589 n.3.

App.11a
operation of law from her fraud. That debt arose not
when her brother borrowed money from McClellan
but when she prevented McClellan from collecting
from the brother the money the brother owed him.”
(emphasis in original)). Here, SEPH’s assertions fail
not because Gaddy did not engage in “actual fraud”
by conveying his assets3 but because the Water’s Edge
loans were not “obtained by” fraud as required for
exemption under § 523(a)(2)(A).
Again, the Water’s Edge debt existed long before
Gaddy began transferring his assets, and that debt is
an ordinary contract debt that did not arise from
fraud of any kind. SEPH presents no binding authority
that supports its assertion that a debtor’s fraudulent
conveyance of assets in an attempt to avoid collection
of a preexisting debt renders that preexisting debt
exempt from discharge under § 523(a)(2)(A).
B. The Water’s Edge Debt Is Not Exempt From
Discharge Under 11 U.S.C. § 523(a)(6)
To qualify as exempt from discharge under § 523
(a)(6), a debt must be a “debt . . . for willful and malicious injury by the debtor to another entity or to the
property of another entity.” 11 U.S.C. § 523(a)(6). SEPH
claims that the Water’s Edge debt is exempt under
this provision because SEPH was injured by Gaddy’s
fraudulent conveyances of his personal assets—
conveyances that SEPH asserts Gaddy made willfully

3 We make no findings on whether Gaddy’s transfers were indeed
fraudulent. We accept the allegations of SEPH’s complaint as
true in reviewing a ruling on a motion for judgment on the
pleadings. See Sun Life Assurance, 904 F.3d at 1207.

App.12a
and maliciously. We are not persuaded; SEPH has
not alleged cognizable “injury” under § 523(a)(6).
“A debtor is responsible for a ‘willful’ injury when
he or she commits an intentional act the purpose of
which is to cause injury or which is substantially
certain to cause injury.” Kane v. Stewart Tilghman
Fox & Bianchi, P.A. (In re Kane), 755 F.3d 1285, 1293
(11th Cir. 2014) (quoting Maxfield v. Jennings (In re
Jennings), 670 F.3d 1329, 1334 (11th Cir. 2012)). And
“‘[m]alicious’ means wrongful and without just cause
or excessive even in the absence of personal hatred,
spite or ill-will.” Id. at 1294 (quoting Maxfield, 670 F.3d
at 1334).
In focusing on the nature of Gaddy’s conduct,
SEPH skips an important step in its § 523(a)(6) analysis. To be exempted from discharge under this
provision, an obligation must be a “debt . . . for willful
and malicious injury.” 11 U.S.C. § 523(a)(6) (emphasis
added). As the Supreme Court has explained, “‘debt
for’ is used throughout [§ 523(a)] to mean ‘debt as a
result of,’ ‘debt with respect to,’ ‘debt by reason of,’
and the like.” Cohen, 523 U.S. at 220 (citing American Heritage Dictionary 709 (3d ed. 1992) and Black’s
Law Dictionary 644 (6th ed. 1990)). In this case, the
Water’s Edge debt is a contract debt that was incurred
long before the challenged conveyances. SEPH’s complaint in the adversary proceeding did not allege
that the Water’s Edge debt was the “result of,” “with
respect to,” or “by reason of” Gaddy’s tortious conduct.
The only misconduct alleged by SEPH pertains to
Gaddy’s fraudulent conveyances of assets. But those
conveyances occurred years after Gaddy became indebted to SEPH for the Water’s Edge guaranties, and

App.13a
the conveyances are not traceable to that debt, which
arose from an ordinary breach of contract.
SEPH argues that it should prevail under Maxfield, in which this Court affirmed a ruling that a

fraudulent transfer judgment was exempt from discharge under § 523(a)(6). But as the bankruptcy court
correctly concluded, Maxfield is distinguishable because
the debt at issue there—the debtor’s joint and several
liability for part of her ex-husband’s preexisting debt
—arose from the debtor’s participation as a conspirator
in the fraudulent transfer of property; it thus was “for
willful and malicious injury” and qualified for exemption under § 523(a)(6). Maxfield, 670 F.3d at 1331–34.
In contrast, the Water’s Edge debt arose from breach
of guaranty, not from a “willful and malicious injury.”
We are not persuaded by SEPH’s argument that
actions taken by a debtor after a debt is incurred, even
if in an effort to thwart a creditor’s collection efforts
by fraudulently conveying assets, create a separate
injury for the purposes of § 523(a)(6). The Water’s Edge
debt—incurred long before Gaddy’s conveyances of
assets—was not “for willful and malicious injury” to
SEPH or its property, and SEPH’s § 523(a)(6) claim
that its Water’s Edge judgment is exempt from discharge fails as a matter of law.
C. The Bankruptcy Court Correctly Denied Leave
to Amend Because of the Futility of SEPH’s
Proposed Amendment Under the AUFTA
We now turn to the issue that SEPH belatedly
raised in the bankruptcy court. SEPH contends that
Gaddy’s fraudulent transfers of assets gave rise to a
new debt to SEPH under the AUFTA—separate from
the Water’s Edge judgment—that qualifies as exempt

App.14a
from discharge under both § 523(a)(2)(A) and § 523(a)
(6). Although SEPH did not rely on this theory in its
adversary complaint, during oral argument in the
bankruptcy court SEPH requested leave to amend to
specifically add it as a basis for relief. Under this
alternative approach, SEPH argues that the transfers
resulted in Gaddy becoming indebted to SEPH for an
amount equal to the value of the assets conveyed.
These debts, SEPH maintains, arise from “actual fraud”
under § 523(a)(2)(A) and were “for willful and malicious
injury” within the meaning of § 523(a)(6). The bankruptcy court rejected the proposed amendment on the
view that Alabama law would not permit recovery
against a fraudulent transferor. We also reject the
proposed amendment, though for a different reason.
We conclude that Alabama law would not permit the
double recovery SEPH seeks.
There can be no issue as to dischargeability unless
a debt or potential debt exists. Although there is
no dispute that Gaddy owes the Water’s Edge debt—
which, as discussed earlier, did not arise from fraud
or willful and malicious injury—SEPH has not established a basis for a “fraudulent transfer debt” owed
or potentially owed by Gaddy to SEPH.
The AUFTA specifies the remedies available to
creditors when a debtor fraudulently transfers property:
(a) In an action for relief against a transfer
under this chapter, the remedies available
to creditors . . . include:
(1) Avoidance of the transfer to the extent
necessary to satisfy the creditor’s claim;
(2) An attachment or other provisional
remedy against the asset transferred or

App.15a
other property of the transferee in
accordance with the procedure prescribed
by any applicable provision of any other
statute or the Alabama Rules of Civil
Procedure;
(3) Subject to applicable principles of equity
and in accordance with applicable rules
of civil procedure,
a.

An injunction against further disposition by the debtor or a transferee,
or both, of the asset transferred or
of other property;

b.

Appointment of a receiver to take
charge of the asset transferred or
of other property of the transferee;
or

c.

Any other relief the circumstances
may require.

Ala. Code § 8-9A-7(a). SEPH relies on the “[a]ny other
relief the circumstances may require” language of
§ 8-9A-7(a)(3)(c) to argue that it is entitled to a money
judgment against Gaddy in the amount of the fraudulent transfers, and it relies on 11 U.S.C. § 523(a)(2)(A)
and § 523(a)(6) to argue that this judgment is exempt
from discharge.
Generally, Alabama permits only one recovery for
a given harm. Braswell v. ConAgra, Inc., 936 F.2d 1169,
1173–74 (11th Cir. 1991); see also Steger v. Everett
Bus Sales, 495 So. 2d 608, 609 (Ala. 1986). Yet SEPH
seeks a new judgment for the same debt. It already
has a judgment against Gaddy for the unpaid Water’s
Edge guaranties. It now seeks a second judgment

App.16a
entitling it to the same damages. SEPH asserted
below no independent, freestanding harm from the
fraudulent transfers themselves; it complained only
that the transfers kept it from collecting the underlying
debt.
Attempting to support its double-recovery theory,
SEPH directs our attention to Johns v. A.T. Stephens
Enterprises, Inc., 815 So. 2d 511 (Ala. 2001). There,
the Supreme Court of Alabama affirmed a jury’s award
of compensatory damages under § 8-9A-7(a)(3)(c) on a
conspiracy-to-defraud claim. Id. at 516–17. But Johns
is not helpful to SEPH’s argument. That case involved
the plaintiff’s lease of trucks to a corporate defendant.
The jury awarded compensatory damages on plaintiff’s conspiracy claim against that defendant and
conspiring codefendants for the plaintiff’s lost profits—
a harm separate from the underlying debt. Id.; see
also A.T. Stephens Enters., Inc. v. Johns, 757 So. 2d
416 (Ala. 2000) (prior appeal providing background
facts). Here, by contrast, SEPH asserts no harm from
the fraudulent transfers other than its inability to
collect the underlying debt. Johns offers no support
for that theory of recovery because it does not change
the principle that “Alabama law bars double recovery
of compensatory damages for a fraud claim and a
contract claim based on a single transaction.” Braswell,
936 F.2d at 1173.
SEPH now also asserts that it could potentially
recover punitive damages, attorney’s fees, lost profits,
or consequential damages on its fraudulent transfer
claims against Gaddy. However, not only are these
claims vague, but also SEPH did not raise these
points before the bankruptcy court. We therefore
decline to address them. See JWL Entm’t Grp., Inc.

App.17a

v. Solby+Westbrae Partners (In re Fisher Island
Invs., Inc.), 778 F.3d 1172, 1193–94 (11th Cir. 2015).
For these reasons, we conclude that the bankruptcy
court correctly determined that SEPH was not entitled
to leave to amend its adversary complaint because
such amendment would have been futile.
IV. Conclusion
Accordingly, we affirm the judgment of the district
court.

App.18a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF ALABAMA
(APRIL 1, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
________________________
SE PROPERTY HOLDINGS, LLC,

Appellant,
v.
JERRY DEWAYNE GADDY,

Appellee.

________________________
Civil No. 1:18-CV-00027

Before: Jeffrey U. BEAVERSTOCK,
United States District Judge.
This matter is before the court on SE Property
Holdings LLC’s (“SEPH” or “Appellant”) appeal of an
order from the U.S. Bankruptcy Court for the Southern
District of Alabama. For its determination, the court
has considered each party’s respective brief(s) (Docs.
10–12), as well as the complete record of the adversarial
proceedings from the Bankruptcy Court (Doc. 6). For
the reasons stated herein, the Bankruptcy Court’s
order granting Appellee’s Motion for Judgment the
Pleadings is AFFIRMED.

App.19a
I.

Background

According to the record, SEPH filed the complaint
objecting to discharge that birthed the instant appeal
on July 7, 2017. In its complaint, SEPH provided a
chronological account of events that led the parties to
their present status before the court. Those events
are briefly summarized as follows. On December 5,
2006, SEPH’s predecessor in interest (“Bank”) issued
two loans to Water’s Edge, LLC, to fund the construction of a real estate project in Baldwin County, Alabama, (“Water’s Edge project”). The first loan (“first loan”)
totaled $10 million. Jerry Dewayne Gaddy (“Appellee”
of “Gaddy”) acted as a guarantor for that loan, executing
a Continuing Unlimited Guaranty Agreement to that
effect on November 28, 2006. The second loan (“second
loan”) for the project amounted to $4.5 million. For the
second loan, Appellee executed an agreement designating himself as a limited guarantor for the amount
of $84,392.
On or about April 25, 2008, Appellee reaffirmed his
guaranty of the first loan with a principal increase to
$12.5 million and reaffirmed his limited guaranty of
the second loan for $84,392. Thereafter, several circumstances arose which led to the default of payments
on the loans for the “Water’s Edge” project. As a result,
SEPH’s predecessor in interest filed suit against
Water’s Edge, LLC and a number of guarantors for the
Water’s Edge project, including Appellee. On November
14, 2017, the Baldwin County Circuit Court ruled in
favor of SEPH on its claims against Appellee and
other defendants. One month later, that court entered
a judgment against Appellee in the amount of
$9,168,468.14. Thereafter, SEPH discovered several
transactions undertaken by Appellee, which it alleges

App.20a
violate the United States Bankruptcy Code. Those
actions serve as the basis for this appeal.1
Following Appellant’s filing of its adversarial
complaint, the Bankruptcy Court conducted a hearing
on Appellee’s Motion for Judgment on the Pleadings.
On January 5, 2018, the Bankruptcy Court entered an
order in Appellee’s favor. In its order, the Bankruptcy
Court found that the provisions of the Bankruptcy Code
upon which Appellant relied to except Appellee’s debt
from discharge were inappropriate, citing, inter alia,
BancorpSouth Bank v. Shahid, No. 3:16cv621-RV/EMT
(N.D. Fla 2017) for the proposition that Bankruptcy
Code § 523(a)(6) did not support excepting Appellee’s
debt from discharge because “the underlying debt is
the result of personal guaranties, not any willful and
malicious injury by Gaddy” (Doc. 6, p. 167), and Bankruptcy Code § 523(a)(2)(A) could not support Appellant’s
cause of action because, inter alia, Appellee did not
obtain the debt in controversy via actual fraud. (Doc.
6, p. 171).2 SEPH appealed.

1 For a summary of the alleged fraudulent transfers and
conveyances that serve as the underlying conduct of this action,
see Doc. 6, pp. 15–23.
2 Section 523(a) provides, in relevant part, that:
A discharge under [this chapter] does not discharge
an individual debtor from any debt–
. . . (2) for money, property, services, or an extension,
renewal, or refinancing of credit, to the extent
obtained by–
(A)

false pretenses, a false misrepresentation, or
actual fraud, other than a statement respecting
the debtor’s or an insider’s financial condition;

App.21a
II.

Standard of Review

Generally, district courts operate as appellate
courts in bankruptcy matters. In re Sublett, 895 F. 2d
1381, 1383–1384 (11th Cir. 1990). As such, district
courts will not make independent factual findings.
Instead, district courts must affirm a bankruptcy
court’s factual findings unless the court applied an
incorrect legal standard, applied the law in an unreasonable manner, followed improper procedures in
making its determination, or made findings of fact that
are clearly erroneous. In re Horne, 876 F. 3d 1076, 1083
(11th Cir. 2017); Alabama Dept. of Human Resources
v. Lewis, 313–314 (Bkrtcy. S.D. Ala. 2002) (citing In
re Club Assoc., 956 F.2d 1065, 1069 (11th Cir. 1992)).

See also, In re International Pharm., & Discount II,
Inc., 443 F.3d 767, 770 (11th Cir. 2005) (“[t]he bank-

ruptcy court’s findings of fact are not clearly erroneous,
unless, in light of all of the evidence, we are left with
the definite and firm conviction that a mistake has been
made[]”); In re Spiwak, 285 B.R. 744, 747 (Bkrtcy.
S.D. Fla. 2002) (providing that “[a] district court reviewing a bankruptcy appeal is not authorized to make
independent factual findings; that is the function of the
bankruptcy court[]”); Fed. R. Bank. Proc. 8013 (on
appeal, a bankruptcy court’s findings of fact are
reviewed for clear error).
District courts review a bankruptcy court’s legal
conclusions de novo; district court must accept bankruptcy court’s factual findings unless they are clearly
erroneous and give due regard to bankruptcy court’s
opportunity to judge credibility of witnesses. 28 USCS
. . . (6) for willful and malicious injury by the debtor to
another entity or to the property of another entity[.]

App.22a
§ 158. See also In re Simmons, 200 F.3d 738, 741
(11th Cir. 2000); In re Monetary Group, 2 F.3d 1098,
1103 (11th Cir. 1993) (providing that legal determination are reviewed de novo). The reviewing court
may affirm the bankruptcy court’s decision on any
basis supported by the record. Big Top Koolers, Inc.
v. Circus-Man Snacks, Inc., 528 F.3d 839, 844 (11th
Cir. 2008).
III. Discussion
After full review, this court agrees with Judge
Callaway for all the reasons articulated in his order.
As Appellee has noted in his brief on appeal, the flaw
in Appellant’s position is the lack of an essential
element in its requests for relief under §§ 523(a)(2)(A),
and (a)(6). Specifically, Appellant’s position is untenable
as to the requirement that the “debt” be connected to
the alleged improper conduct. (Appellee’s Br. p. 7, 13).
As to § 523(a)(2)(A), the debt Appellant seeks to
discharge is for the pre-petition state court judgments
rendered against Appellee based upon his promissory
note guaranties. That debt was not “debt for money
. . . to the extent obtained by . . . actual fraud” as
required by the Bankruptcy Code. See In re Wilson,
2017 WL 1628878, at *8 (Bankr. N.D. Ohio 2017).3

3 Appellant cites, inter alia, In re Smith, to support its contention
that fraudulent conveyances are due redress under § 523(a)(2)(A)
following the Husky decision. (Appellant’s Br. p. 18). However,
the Bankruptcy Court for the Northern District of Mississippi
found that the debtor lied to a creditor to actually induce said
creditor to make a loan for the debt at issue, holding consistent
with the standard that a fraudulent statement must actually
induce the debt at issue. As stated by that court:

App.23a
As noted by the bankruptcy court, the majority opinion
in Husky did not go so far as to rule out the “[debt]
obtained by . . . fraud” requirement. Instead, the Court
only commented on the “[debt] obtained by . . . fraud”
requirement in passing criticism of Justice Thomas’s
dissent.4 This was only dicta. In this instance, Appellee
undertook no fraudulent actions to acquire the debt
it presently holds. Instead, the underlying debt appears
to be the products of guaranties via contract. This
court shall not go so far as to adopt an inapposite
conclusion under the circumstances.
Nor was Appellee’s debt a “debt for” willful and
malicious injury by Appellant to another entity, or to
[T]he Debtor lied to Mr. Robinson to induce him to
make the loan . . . The Debtor told Mr. Robinson that
CGM presently needed $837,000 to pay Mr. Flautt.
The evidence shows, however, that Mr. Flautt had
already been paid when the loan was solicited by the
Debtor. In addition, the Debtor told Mr. Robinson
that CGM had a current receivable from PECO/
Lansing for 200,000 bushels of corn, when, in fact,
that receivable had already been paid. These two
representations, from the Debtor to Mr. Robinson,
were false at the time the Debtor made them. The
Court further finds that the Debtor knew they were
false at the time. The Debtor knew that Mr. Flautt
had already been paid, because he was the one who
paid him. Furthermore, as set forth above, the Court
does not believe that the Debtor did not know that CGM
had already received the payment from PECO/Lansing.
Thus, the first and second elements are satisfied, to
the extent of the $837,000 that the Debtor actually
requested from Mr. Robinson.
585 B.R. 359, 368–69 (Bankr. N.D. Miss. 2018).
4 See Husky at 1590 (2016) (reversing and remanding as to the
meaning of “actual fraud”).

App.24a
the property of another entity as required by § 523(a)
(6). In this instance, Appellant did not conceal anything
to incur the debt-at-issue. See In re Best, 109 Fed.
App. 1, 5 (6th Cir. 2004). This court is satisfied that a
debtor’s actions after a debt has been incurred cannot
support a claim under this provision, as the “injury
is the underlying debt.” In re Kirwan, No. 15-14012MSH, 2016 WL 5110677, 4 (Bankr. D. Mass. 2016);
see also In re Saylor, 108 F.3d 219, 221 (9th Cir. 1997)
(creditor’s potential fraudulent transfer remedies do
not constitute “debt” or “property” under § 523(a)(6)).
Accordingly, the decision and judgment rendered
by the Bankruptcy Court on January 5, 2018, is
hereby AFFIRMED.
DONE and ordered this 1st day of April, 2019.
/s/ Jeffrey U. Beaverstock
United States District Judge

App.25a
ORDER OF THE UNITED STATES BANKRUPTCY
COURT FOR THE SOUTHERN DISTRICT OF
ALABAMA GRANTING MOTION FOR
JUDGMENT ON THE PLEADINGS
(JANUARY 5, 2018)
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
________________________
In Re: JERRY DEWAYNE GADDY,

Debtor.
________________________
SE PROPERTY HOLDINGS, LLC,

Plaintiff,
v.
JERRY DEWAYNE GADDY,

Defendant.

________________________
Case No. 17-01568

Adversary Case No. 17-00054
Before: Henry A. CALLAWAY,
Chief U.S. Bankruptcy Judge.
This adversary proceeding is before the court on
the motion (doc. 16) for judgment on the pleadings
filed by defendant/debtor Jerry Dewayne Gaddy

App.26a
(“Gaddy” or “debtor”) with respect to the complaint
objecting to discharge (doc. 1) filed by plaintiff SE
Property Holdings, LLC (“SEPH” or “plaintiff”) pursuant to 11 U.S.C. §§ 523(a)(2)(A) and 523(a)(6). In
summary, the debtor guaranteed in 2006 and 2008
substantial loans made by plaintiff’s predecessor Vision
Bank related to a real estate project which ultimately
failed. Plaintiff contends that the debtor from 2009
through 2014 then undertook an extensive series of
transfers of real and personal property to his wife
and daughter or entities controlled by his family or
him to avoid collection before ultimately filing for
bankruptcy in 2017.
This court has jurisdiction under 28 U.S.C.
§§ 1334(b) and 157 and the order of reference of the
district court. This is a core proceeding under 28
U.S.C. § 157(b)(2)(I), and the court has authority to
enter a final order (the parties also so stipulated on
the record at a scheduling conference on September
19, 2017). For the reasons discussed herein, the court
grants the debtor’s motion.
Background
Gaddy’s debt to SEPH arose from the breach of
Gaddy’s personal guaranty of two business loans to
Water’s Edge, LLC related to an unsuccessful real
estate project in Baldwin County, Alabama (the
“project”). Gaddy executed personal guaranties for
the two loans in 2006 and reaffirmed those obligations
in 2008. Water’s Edge defaulted on its obligation to
SEPH’s predecessor-in-interest Vision Bank in June
2010. SEPH filed suit against Gaddy and other guarantors in October 2010 in the Circuit Court of Baldwin
County, Alabama. Gaddy’s debt to SEPH was reduced

App.27a
to a judgment on December 17, 2014 in the amount of
$9,168,468.14, although the Alabama Supreme Court
later held that the judgment was not final because of
one defendant’s bankruptcy.1 See Gaddy v. SE Prop.
Holdings, LLC, 218 So. 3d 315, 324 (Ala. 2016).
SEPH alleges that from 2009 through 2014, with
knowledge of Water’s Edge potential and then actual
default, Gaddy began transferring his property to family
members and others. The following is a summary of
pertinent events from SEPH’s complaint:
12/5/2006
First loan to Water’s Edge (#98809)
for $10 million
11/28/2006
Gaddy’s unlimited guaranty for Loan 1
12/5/2006
Second loan to Water’s Edge (#98817)
for $4.5 million
11/28/2006
Gaddy’s limited guaranty for Loan 2
(limited to $84,392)
4/25/2008
Gaddy reaffirms guaranty of Loan 1 with
principal increase to $12.5 million
4/25/2008
Gaddy reaffirms limited guaranty of Loan 2

1 SEPH and Gaddy disagree as to whether the judgment is now
final. As discussed by the court at oral argument and below, the
finality or non-finality of the state court judgment does not affect
the court’s analysis.

App.28a
March 2009
It becomes clear that the project will not be
completed on time
3/13/2009
Guarantors begin missing capital contributions
May 2009
First guarantors file for bankruptcy
10/3/2009
Letter to guarantors from the bank regarding
upcoming payment and potential default
10/16/2009
Gaddy deeds Marengo County, Alabama
parcels to Rembert, LLC
10/30/2009
Rembert, LLC formed per Secretary of State
with debtor, wife Sharon, and daughter
Elizabeth as members
11/2/2009
Gaddy transfers 46% of Gaddy Electric &
Plumbing, LLC to his wife Sharon
11/20/2009
Gaddy quitclaims three Marengo County
parcels to his wife Sharon
June 2010
Water’s Edge defaults on both Loans and the
bank demands payment from Gaddy pursuant to his guaranties
10/4/2010
Gaddy conveys real property (110 Barley
Avenue) to daughter Elizabeth

App.29a
10/11/2010
SEPH files lawsuit against Water’s Edge
and guarantors, including Gaddy, in Baldwin
County Circuit Court
2/23/2012
SLG Properties, LLC (“SLG”) formed by
Gaddy’s wife Sharon
4/18/2012
Gaddy conveys real property
(145 Industrial Park) to SLG
4/18/2012
Gaddy conveys real property
(179 Industrial Park) to SLG
11/17/2014
Baldwin County Circuit Court judgment
against Gaddy and other guarantors for
$9.1 million (later held on appeal to not be
final)
11/23/2014
Gaddy transfers $293,945.51 to Gaddy Electric
12/15/2014
Gaddy transfers 41% interest in
Gaddy Electric to his wife Sharon
4/26/2017
Gaddy files the above-captioned chapter 7
bankruptcy
Standard
Pursuant to Federal Rule of Civil Procedure 12(c),
made applicable by Federal Rule of Bankruptcy
Procedure 7012, a party may move for judgment on
the pleadings after the pleadings are closed. “Judg-

App.30a
ment on the pleadings is appropriate when there are
no material facts in dispute and the moving party is
entitled to judgment as a matter of law.” Douglas
Asphalt Co. v. Qore, Inc., 541 F.3d 1269, 1273 (11th
Cir. 2008). “All facts alleged in the complaint must
be accepted as true and viewed in the light most
favorable to the nonmoving party.” Id. In deciding the
motion, “the court considers the complaint, answer[],
and the exhibits thereto.” See Barnett v. Baldwin Cty.
Bd. of Educ., 60 F. Supp. 3d 1216, 1224 (S.D. Ala. 2014).
Discussion
SEPH alleges that the transfers by Gaddy outlined
above “were actually fraudulent as to SEPH as they
were made to hinder SEPH’s collection of its debt
owed by” Gaddy, and that Gaddy’s “actual fraud in
connection with these fraudulent transfers is an
exception to discharge to the extent of those transfers
under” § 523(a)(2)(A). (See Compl., doc. 1, at ¶¶ 6971). It also contends that in making the transfers
Gaddy “willfully and maliciously injured SEPH and/or
the property of SEPH[,]” and that “such conduct creates
an exception to discharge to the extent of those
transfers under” § 523(a)(6). (See id. at ¶¶ 73-75).
It requests that the court declare its debt nondischargeable pursuant to §§ 523(a)(2)(A) and 523(a)(6).
In its motion for judgment on the pleadings,
Gaddy contends that SEPH’s allegations do not state
a claim under either § 523(a)(2)(A) or § 523(a)(6). SEPH
filed a response to the motion, Gaddy filed a reply,
SEPH filed a sur-reply, and the court heard extensive
oral argument.

App.31a
I. BancorpSouth Bank v. Shahid
The court is not writing on a blank slate; it has
considered the issues raised by Gaddy’s motion in the
case of BancorpSouth Bank v. Shahid , Adversary
Proceeding No. 16-03009, while sitting as a visiting
judge in the U.S. Bankruptcy Court for the Northern
District of Florida, Pensacola Division. In Shahid, the
creditor obtained state court judgments totaling $1.8
million against the debtor, who then undertook a series
of allegedly fraudulent transfers to avoid collection.
The undersigned granted the debtor’s motion to dismiss
the bank’s nondischargeability actions under 11 U.S.C.
§§ 523(a)(2) and 523(a)(6). The bank appealed, and the
district court affirmed. See BancorpSouth Bank v.
Shahid, No. 3:16cv621-RV/EMT (N.D. Fla. 2017). In
addition to the district court’s affirmance, at least one
other court has adopted this court’s holding in Shahid.
See, e.g., In re Wilson, No. 16-3068, 2017 WL 1628878,
at *8 (Bankr. N.D. Ohio May 1, 2017) (citing this
court’s Shahid opinion with approval); see also In re
Vanwinkle, 562 B.R. 671, 677-78 (Bankr. E.D. Ky.
2016) (reaching same conclusion as Shahid). Because
the bankruptcy’s and district court’s opinions in Shahid
are not reported, copies are attached as Exhibits A
and B, and those opinions are incorporated as if set
out fully herein.
II. SEPH’s allegations
SEPH contends that the Shahid opinions were
wrongly decided or can be distinguished on the facts.
The court discusses SEPH’s arguments below.2
2 Several of SEPH’s arguments blur the lines between §§ 523(a)(6)
and 523(a)(2). The court’s analysis in each section below applies

App.32a
A. Bankruptcy Code § 523(a)(6)
Bankruptcy Code § 523(a)(6) creates an exception
to discharge “for willful and malicious injury by the
debtor to another entity or to the property of another
entity. . . . ” As discussed in this court’s Shahid opinion,
other courts have held that a debtor’s actions after a
debt has been incurred cannot support a § 523(a)(6)
claims because the “injury” is the underlying debt.
See Shahid op., Ex. A hereto, at pp. 2-3. This reasoning
is also dispositive here. The underlying debt is the
result of personal guaranties, not any willful and
malicious injury by Gaddy. The parties’ disagreement
about whether or not the state court judgment based
on the guaranties is a final judgment is immaterial;
even if the judgment is final, the “injury” is still the
debt underlying the judgment. In re Jennings, 670
F.3d 1329 (11th Cir. 2012) is distinguishable because
the “injury” there arose from the fraudulent transfer
itself by the application of California state law. See
Shahid op., Ex. A hereto, at pp. 3-4.
The only debt that SEPH seeks to have declared
nondischargeable in its complaint is the state court
judgment based on the guaranties. (See Compl., doc. 1,
at pp. 14-15). Nevertheless, SEPH’s counsel argued in
brief and at oral argument that it is not only the underlying guaranties that SEPH seeks to have declared
nondischargeable but also a subsequent liability
created by Gaddy’s allegedly fraudulent transfers.3
with equal force to both claims, regardless of the section in which
the analysis is included.
3 The court has considered this argument even though it is not
specifically pleaded in the complaint. For this reason, the court
does not find it necessary to allow amendment under Federal

App.33a
SEPH contends that it suffered a separate “injury” to
it or its property under § 523(a)(6) in the form of
Gaddy’s liability to it under Alabama law for the
fraudulent transfers described in the complaint. In
this respect, SEPH urges the court to adopt the dicta
in McClellan v. Cantrell, 217 F.3d 890 (7th Cir. 2000),
(see SEPH Resp., doc. 25, at p.6), suggesting that a
debtor/transferor who transfers property with the
intent to defraud creates a new, nondischargeable debt
for the value of the transferred property. Thus, the
court must examine whether Alabama law supports
such a claim.
Alabama Code § 8-9A-7 sets out the remedies
available to creditors under Alabama’s Uniform Fraudulent Transfer Act (“AUFTA”):
(1) Avoidance of the transfer to the extent
necessary to satisfy the creditor’s claim;
(2) An attachment or other provisional remedy
against the asset transferred or other property
of the transferee in accordance with the
procedure prescribed by any applicable
provision of any other statute or the Alabama
Rules of Civil Procedure;
(3) Subject to applicable principles of equity and
in accordance with applicable rules of civil
procedure,
a.

An injunction against further disposition
by the debtor or a transferee, or both, of
the asset transferred or of other property;

Rule of Civil Procedure 15, incorporated by Federal Rule of
Bankruptcy Procedure 7015.

App.34a
b.

Appointment of a receiver to take charge
of the asset transferred or of other
property of the transferee; or

c.

Any other relief the circumstances may
require.

Although the statute specifically states that the
creditor’s remedies are not limited to those listed,
SEPH has not provided any Alabama law that the
debtor/transferor who fraudulently transfers property
is liable to a creditor for the value of the transferred
property. In Alabama, if a court avoids a fraudulent
transfer under Alabama Code § 8-9A-7, title does not
revest in the debtor; “[i]nstead, the transferee continues
to own the fraudulently transferred assets [and] the
transfer is void only as to the creditor, and the
creditor can execute on those assets directly” under
Alabama Code § 8-9A-7(b). See Ex parte HealthSouth
Corp., 974 So. 2d 288, 297 (Ala. 2007); SE Prop.
Holdings, LLC v. Center, No. 15-0033-WS-C, 2017 WL
3403793, at *34 (S.D. Ala. Aug. 8, 2017). Because title
remains with the transferee, Alabama law “creates a
remedy for the creditor” against the transferee for
“(i) a money judgment . . . for the lesser of the value
of the asset at the time of transfer or ‘the amount
necessary to satisfy the creditor’s claim;’ or (ii) a
judgment . . . for conveyance of the asset itself.” See
SEPH v. Center, 2017 WL 3403793, at *34 (citing Ala.
Code § 8-9A-8(b)). Alabama law does not contemplate a
similar claim against the transferor, though, as Gaddy
is here.4
4 The court discusses SEPH’s argument that Gaddy was in essence
both transferee and transferor below in conjunction with SEPH’s
§ 523(a)(2) claim.

App.35a
The Alabama Supreme Court did affirm a conspiracy-to-defraud money judgment against a debtortransferor in Johns v. T.T. Stephens Enterprises, 815
So. 2d 511, 516-17 (Ala. 2001). However, the damages
awarded against the debtor-transferor were profits
which the plaintiff lost as a result of the debtor’s
inability to perform its contract with the plaintiff
because of the fraudulent conveyances, not the value
of the transferred property itself as SEPH seeks here.
See id. at 517. In this district, District Judge William
H. Steele recently declined to award SEPH monetary
damages against a debtor/transferor because, among
other reasons, SEPH had not proven any consequential
damages that were the “natural and proximate result
of the [borrower and his wife]’s conspiracy to fraudulently transfer assets beyond its reach.” See SEPH v.
Center, 2017 WL 3403793, at *34. In other words, in
both those cases, the fraudulent transfer itself did not
create a damages claim against the debtor/transferor
under AUFTA. SEPH has not alleged in its complaint, briefs, or oral argument that it has suffered
damages as a result of the alleged fraudulent transfers,
other than the original contractual debt or the value
of the transferred property.
Furthermore, it is unclear how creating a separate
monetary liability on the part of a debtor/transferor
for the value of the transferred property would work
under SEPH’s theory. Assume a debtor owed a specific
creditor $100,000 and fraudulently transferred property
worth $20,000; does he now owe the creditor both
amounts, for a total of $120,000? If the debtor has
ten creditors, does he have a separate liability to
each creditor for the $20,000 value of fraudulently
transferred property, for a total of $200,000 ($20,000

App.36a
x 10 creditors)? Is the debtor liable for money damages
to even future creditors under Alabama Code § 8-9A4? In the absence of any law supporting this theory,
the court declines to find that an alleged fraudulent
transfer in itself creates an “injury” to an individual
creditor by the debtor/transferor that would support
a § 523(a)(6) claim.
Finally, as it did in Shahid, the court also finds
that SEPH cannot sustain a claim under § 523(a)(6)
for damage to its property because it has not alleged a
security interest, judgment lien, or any other interest
in any of the transferred properties. SEPH’s inchoate
right to collect did not constitute its “property” under
§ 523(a)(6). See Shahid op., Ex. A hereto, at p.3. If the
transfers were to SEPH’s detriment, it was a detriment
that was not specific to itself and that it suffered
with all of Gaddy’s creditors–both existing and future.
B. Bankruptcy Code § 523(a)(2)
Bankruptcy Code § 523(a)(2) states in pertinent
part that a debtor is not discharged “from any debt
for money, property, services, or an extension, renewal,
or refinancing of credit, to the extent obtained by . . .
actual fraud, other than a statement respecting the
debtor’s or an insider’s financial condition. . . . ”
(emphasis added). SEPH does not contend that the
underlying debt from the guaranties was obtained by
fraud or was anything other than a standard contract
debt. Instead, it relies on the U.S. Supreme Court’s
decision in Husky International Electronics, Inc. v. Ritz,
136 S. Ct. 1581 (2016), to argue that Gaddy’s alleged
fraudulent transfer “scheme” after incurring the underlying debt entitles it to have its debt declared nondischargeable under § 523(a)(2). While Husky potentially

App.37a
expanded the universe of § 523(a)(2) causes of action
against transferees, it does not reach as far as SEPH
argues for the same reasons outlined in Shahid. See
Shahid op., Ex. A hereto, at pp. 4-5; see also, e.g., In
re Vanwinkle, 562 B.R. at 677-78.
SEPH argues that Gaddy was essentially both
transferor and transferee, and thus the distinction
that this court made in Shahid should not apply.
However, the court is unaware of any bankruptcy or
state law to support a cause of action to set aside a
transfer as fraudulent where the same person is both
the transferor and transferee which would support a
§ 523 claim. For example, if SEPH contends that Gaddy
controls Gaddy Electric through his family such that
Gaddy Electric should be part of the debtor’s bankruptcy estate, then it needs to work with the chapter 7
trustee to bring that company into the estate; its
remedy is not to have its debt declared nondischargeable under § 523. In re Bilzerian, 100 F.3d 886 (11th
Cir. 1996), cited by SEPH, did not involve alleged
fraudulent transfers and is otherwise distinguishable
from the situation presented here.
SEPH further tries to distinguish Shahid on the
ground that SEPH had filed a fraudulent transfer
action against the debtor in district court, which action
was stayed by the filing of the bankruptcy case. SEPH
argues that it would have obtained a money damages
award against Gaddy in the fraudulent transfer action
for the value of the transferred property. However,
as discussed above in conjunction with SEPH’s § 523
(a)(6) claim, it has not pointed to any Alabama law
which would create a “debt for money, property,
services, or an extension, renewal, or refinancing of
credit” in favor of a creditor against a debtor/transferor

App.38a
based solely on the value of the fraudulently transferred property.
SEPH’s argument that “even a transferor should
be subject to § 523(a)(2) to the extent of their fraud[,]”
(see SEPH Resp., doc. 25, at p.6), ignores that fraudulent transfers such as those alleged here are an
offense against all creditors, present and future.
Gaddy’s schedules reflect significant unsecured debt
other than that of SEPH, including $1.631 million
owed to Union State Bank, and $784,991 owed to West
Alabama Bank & Trust. Under Alabama law, transfers
made by a debtor with the actual intent to hinder,
delay, or defraud any creditor can be set aside even
as to future creditors whose claims did not arise until
after the transfers took place. See Ala. Code § 8-9A-4.
Under bankruptcy law, the chapter 7 trustee can file
actions to set aside such transfers and bring those
assets into the bankruptcy estate for the benefit of
all creditors, if warranted, and those assets will then
be liquidated for the benefit of all creditors based
upon the priority scheme set out in the Code. See 11
U.S.C. § 548. As discussed above, to the extent that the
Seventh Circuit dicta cited by SEPH from McClellan,
217 F.3d 890, suggests that a debtor/transferor could
create a new, nondischargeable debt to one creditor
in the amount of the allegedly fraudulently transferred
property that would support a claim under § 523(a)(2),
the court declines to follow that suggestion under
Alabama or bankruptcy law. And in McClellan, the
creditor had a security interest (although unperfected)
in the transferred assets. See id. at 892. Here, SEPH
has never contended that it had a security or other
interest in the transferred items. See, e.g., In re

App.39a

Wigley, 533 B.R. 267, 273 (B.A.P. 8th Cir. 2015)
(distinguishing McClellan on that basis).
Bankruptcy Code § 727(a)(2)(A) bars the discharge
of a debtor who has transferred his property with
intent to hinder, delay, or defraud creditors within a
year of the bankruptcy petition. A holding that a
debtor is not entitled to a discharge under this section
benefits all creditors. But to hold that a single
unsecured creditor like SEPH can have its debt declared
nondischargeable under § 523(a)(2)(A) because of allegedly fraudulent transfers which took place long after
its debt arose (and which affect all unsecured creditors
equally) would conflate and confuse that section with
§ 727(a)(2).
Finally, the court is not persuaded by SEPH’s
attempt to distinguish Shahid on the ground that,
unlike in Shahid, the transfers here took place before
the creditor obtained a state court judgment against
debtor. Although the fact that the transfers in Shahid
took place after the judgments had already been
entered added color to the point that the judgments
were not “obtained by” the alleged fraud, all that is
required under § 523(a)(2) is that the extension of
credit arose as a result of fraud–not the judgment being
entered on the extension of credit.5
Conclusion
To the extent the court has not specifically
addressed any of the parties’ arguments, it has
considered them and determined that they would not
alter the result. For the reasons discussed above, Gaddy
5 Although not argued in conjunction with the § 523(a)(6) claim,
this analysis similarly applies to the “injury” element of that claim.

App.40a
is entitled to judgment as a matter of law on SEPH’s
claims brought pursuant to 11 U.S.C. §§ 523(a)(2)(A)
and 523(a)(6). Therefore, the court grants the debtor’s
motion (doc. 16) for judgment on the pleadings and will
enter a separate order dismissing the adversary proceeding.
/s/ Henry A. Callaway
Chief U.S. Bankruptcy Judge
Dated: January 5, 2018

App.41a
ORDER AND JUDGMENT OF THE UNITED
STATES BANKRUPTCY COURT FOR THE
SOUTHERN DISTRICT OF ALABAMA
(JANUARY 5, 2018)
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
________________________
In Re: JERRY DEWAYNE GADDY,

Debtor.
________________________
SE PROPERTY HOLDINGS, LLC,

Plaintiff,
v.
JERRY DEWAYNE GADDY,

Defendant.

________________________
Case No. 17-01568

Adversary Case No. 17-00054
Before: Henry A. CALLAWAY,
Chief U.S. Bankruptcy Judge.
For the reasons stated in its separate order
granting the defendant’s motion for judgment on the
pleadings, the court enters judgment in favor of
defendant/debtor Jerry Dewayne Gaddy with respect

App.42a
to the complaint objecting to discharge (doc. 1) filed
by plaintiff SE Property Holdings, LLC. The adversary
case is dismissed with prejudice, all parties to bear
their own costs.
/s/ Henry A. Callaway
Chief U.S. Bankruptcy Judge
Dated: January 5, 2018

App.43a
ORDER OF THE UNITED STATES COURT
OF APPEALS FOR THE ELEVENTH CIRCUIT
DENYING PETITION FOR PANEL REHEARING
(NOVEMBER 3, 2020)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
In Re: JERRY DEWAYNE GADDY,

Debtor.
________________________
SE PROPERTY HOLDINGS, LLC,

Plaintiff-Appellant,
v.
JERRY DEWAYNE GADDY,

Defendant-Appellee.

________________________
No. 19-11699-HH

Appeal from the United States District Court
for the Southern District of Alabama
Before: WILLIAM PRYOR, Chief Judge., GRANT,
Circuit Judge., and ANTOON, District Judge.

 Honorable John Antoon II, United States District Judge for
the Middle District of Florida, sitting by designation.

App.44a
PER CURIAM:
The Petition for Panel Rehearing filed by SE
Property Holdings, LLC is DENIED.

App.45a
11 U.S.C. § 523
(a) A discharge under section 727, 1141, 1192 1228(a),
1228(b), or 1328(b) of this title does not discharge
an individual debtor from any debt—
(1) for a tax or a customs duty—
(A) of the kind and for the periods specified in
section 507(a)(3) or 507(a)(8) of this title,
whether or not a claim for such tax was
filed or allowed;
(B) with respect to which a return, or equivalent
report or notice, if required—
(i)

was not filed or given; or

(ii) was filed or given after the date on
which such return, report, or notice was
last due, under applicable law or under
any extension, and after two years before
the date of the filing of the petition; or
(C) with respect to which the debtor made a
fraudulent return or willfully attempted in
any manner to evade or defeat such tax;
(2) for money, property, services, or an extension,
renewal, or refinancing of credit, to the extent
obtained by—
(A) false pretenses, a false representation, or
actual fraud, other than a statement
respecting the debtor’s or an insider’s financial
condition;
(B) use of a statement in writing—
(i)

that is materially false;

App.46a
(ii) respecting the debtor’s or an insider’s
financial condition;
(iii) on which the creditor to whom the
debtor is liable for such money, property,
services, or credit reasonably relied; and
(iv) that the debtor caused to be made or
published with intent to deceive; or
(C)
(i) for purposes of subparagraph (A)—
(I)

consumer debts owed to a single
creditor and aggregating more than
$725 [originally “$500”, adjusted
effective April 1, 2019]2 for luxury
goods or services incurred by an
individual debtor on or within 90
days before the order for relief
under this title are presumed to be
nondischargeable; and

(II) cash advances aggregating more
than $1,000 [originally “$750”,
adjusted effective April 1, 2019] that
are extensions of consumer credit
under an open end credit plan
obtained by an individual debtor on
or within 70 days before the order
for relief under this title, are presumed to be nondischargeable; and
(ii) for purposes of this subparagraph—
(I)

the terms “consumer”, “credit”, and
“open end credit plan” have the

App.47a
same meanings as in section 103 of
the Truth in Lending Act; and
(II) the term “luxury goods or services”
does not include goods or services
reasonably necessary for the support
or maintenance of the debtor or a
dependent of the debtor;
(3) neither listed nor scheduled under section
521(a)(1) of this title, with the name, if known to
the debtor, of the creditor to whom such debt is
owed, in time to permit—
(A) if such debt is not of a kind specified in
paragraph (2), (4), or (6) of this subsection,
timely filing of a proof of claim, unless such
creditor had notice or actual knowledge of
the case in time for such timely filing; or
(B) if such debt is of a kind specified in paragraph
(2), (4), or (6) of this subsection, timely filing
of a proof of claim and timely request for a
determination of dischargeability of such
debt under one of such paragraphs, unless
such creditor had notice or actual knowledge
of the case in time for such timely filing and
request;
(4) for fraud or defalcation while acting in a
fiduciary capacity, embezzlement, or larceny;
(5) for a domestic support obligation;
(6) for willful and malicious injury by the debtor
to another entity or to the property of another
entity;

App.48a
(7) to the extent such debt is for a fine, penalty,
or forfeiture payable to and for the benefit of a
governmental unit, and is not compensation for
actual pecuniary loss, other than a tax penalty—
(A) relating to a tax of a kind not specified in
paragraph (1) of this subsection; or
(B) imposed with respect to a transaction or
event that occurred before three years
before the date of the filing of the petition;
(8) unless excepting such debt from discharge
under this paragraph would impose an undue
hardship on the debtor and the debtor’s dependents, for—
(A)
(i)

an educational benefit overpayment or
loan made, insured, or guaranteed by a
governmental unit, or made under any
program funded in whole or in part by
a governmental unit or nonprofit institution; or

(ii) an obligation to repay funds received as
an educational benefit, scholarship, or
stipend; or
(B) any other educational loan that is a qualified
education loan, as defined in section 221(d)(1)
of the Internal Revenue Code of 1986,
incurred by a debtor who is an individual;
(9) for death or personal injury caused by the
debtor’s operation of a motor vehicle, vessel, or
aircraft if such operation was unlawful because

App.49a
the debtor was intoxicated from using alcohol, a
drug, or another substance;
(10) that was or could have been listed or
scheduled by the debtor in a prior case concerning
the debtor under this title or under the Bankruptcy
Act in which the debtor waived discharge, or
was denied a discharge under section 727(a)(2),
(3), (4), (5), (6), or (7) of this title, or under
section 14c(1), (2), (3), (4), (6), or (7) of such Act;
(11) provided in any final judgment, unreviewable
order, or consent order or decree entered in any
court of the United States or of any State, issued
by a Federal depository institutions regulatory
agency, or contained in any settlement agreement
entered into by the debtor, arising from any act
of fraud or defalcation while acting in a fiduciary
capacity committed with respect to any depository
institution or insured credit union;
(12) for malicious or reckless failure to fulfill any
commitment by the debtor to a Federal depository
institutions regulatory agency to maintain the
capital of an insured depository institution, except
that this paragraph shall not extend any such
commitment which would otherwise be terminated
due to any act of such agency;
(13) for any payment of an order of restitution
issued under title 18, United States Code;
(14) incurred to pay a tax to the United States
that would be nondischargeable pursuant to paragraph (1);

App.50a
(14A) incurred to pay a tax to a governmental unit,
other than the United States, that would be
nondischargeable under paragraph (1);
(14B) incurred to pay fines or penalties imposed
under Federal election law;
(15) to a spouse, former spouse, or child of the
debtor and not of the kind described in paragraph
(5) that is incurred by the debtor in the course of
a divorce or separation or in connection with a
separation agreement, divorce decree or other
order of a court of record, or a determination
made in accordance with State or territorial law
by a governmental unit;
(16) for a fee or assessment that becomes due
and payable after the order for relief to a
membership association with respect to the
debtor’s interest in a unit that has condominium
ownership, in a share of a cooperative corporation,
or a lot in a homeowners association, for as long
as the debtor or the trustee has a legal, equitable,
or possessory ownership interest in such unit,
such corporation, or such lot, but nothing in this
paragraph shall except from discharge the debt
of a debtor for a membership association fee or
assessment for a period arising before entry of
the order for relief in a pending or subsequent
bankruptcy case;
(17) for a fee imposed on a prisoner by any
court for the filing of a case, motion, complaint,
or appeal, or for other costs and expenses
assessed with respect to such filing, regardless
of an assertion of poverty by the debtor under
subsection (b) or (f)(2) of section 1915 of title 28

App.51a
(or a similar non—Federal law), or the debtor’s
status as a prisoner, as defined in section 1915
(h) of title 28 (or a similar non—Federal law);
(18) owed to a pension, profit—sharing, stock
bonus, or other plan established under section
401, 403, 408, 408A, 414, 457, or 501(c) of the
Internal Revenue Code of 1986, under—
(A) a loan permitted under section 408(b)(1) of
the Employee Retirement Income Security
Act of 1974, or subject to section 72(p) of the
Internal Revenue Code of 1986; or
(B) a loan from a thrift savings plan permitted
under subchapter III of chapter 84 of title 5,
that satisfies the requirements of section
8433(g) of such title;
but nothing in this paragraph may be construed
to provide that any loan made under a governmental plan under section 414(d), or a contract
or account under section 403(b), of the Internal
Revenue Code of 1986 constitutes a claim or a
debt under this title; or
(19) that—
(A) is for—
(i)

the violation of any of the Federal
securities laws (as that term is defined
in section 3(a)(47) of the Securities
Exchange Act of 1934), any of the State
securities laws, or any regulation or
order issued under such Federal or
State securities laws; or

App.52a
(ii) common law fraud, deceit, or manipulation in connection with the purchase
or sale of any security; and
(B) results, before, on, or after the date on
which the petition was filed, from—
(i)

any judgment, order, consent order, or
decree entered in any Federal or State
judicial or administrative proceeding;

(ii) any settlement agreement entered into
by the debtor; or
(iii) any court or administrative order for
any damages, fine, penalty, citation,
restitutionary payment, disgorgement
payment, attorney fee, cost, or other
payment owed by the debtor.
For purposes of this subsection, the term “return”
means a return that satisfies the requirements
of applicable nonbankruptcy law (including applicable filing requirements). Such term includes a
return prepared pursuant to section 6020(a) of
the Internal Revenue Code of 1986, or similar
State or local law, or a written stipulation to a
judgment or a final order entered by a nonbankruptcy tribunal, but does not include a return
made pursuant to section 6020(b) of the Internal
Revenue Code of 1986, or a similar State or local
law.
(b) Notwithstanding subsection (a) of this section, a
debt that was excepted from discharge under
subsection (a)(1), (a)(3), or (a)(8) of this section,
under section 17a(1), 17a(3), or 17a(5) of the
Bankruptcy Act, under section 439A of the Higher

App.53a
Education Act of 1965, or under section 733(g) of
the Public Health Service Act in a prior case
concerning the debtor under this title, or under
the Bankruptcy Act, is dischargeable in a case
under this title unless, by the terms of subsection
(a) of this section, such debt is not dischargeable
in the case under this title.
(c)
(1) Except as provided in subsection (a)(3)(B) of
this section, the debtor shall be discharged from
a debt of a kind specified in paragraph (2), (4), or
(6) of subsection (a) of this section, unless, on
request of the creditor to whom such debt is
owed, and after notice and a hearing, the court
determines such debt to be excepted from discharge
under paragraph (2), (4), or (6), as the case may
be, of subsection (a) of this section.
(2) Paragraph (1) shall not apply in the case of a
Federal depository institutions regulatory agency
seeking, in its capacity as conservator, receiver,
or liquidating agent for an insured depository
institution, to recover a debt described in
subsection (a)(2), (a)(4), (a)(6), or (a)(11) owed to
such institution by an institution—affiliated party
unless the receiver, conservator, or liquidating
agent was appointed in time to reasonably comply,
or for a Federal depository institutions regulatory
agency acting in its corporate capacity as a
successor to such receiver, conservator, or
liquidating agent to reasonably comply, with
subsection (a)(3)(B) as a creditor of such institution—affiliated party with respect to such debt.

App.54a
(d) If a creditor requests a determination of dischargeability of a consumer debt under subsection (a)(2) of this section, and such debt is
discharged, the court shall grant judgment in
favor of the debtor for the costs of, and a reasonable attorney’s fee for, the proceeding if the
court finds that the position of the creditor was
not substantially justified, except that the court
shall not award such costs and fees if special circumstances would make the award unjust.
(e) Any institution—affiliated party of an insured
depository institution shall be considered to be
acting in a fiduciary capacity with respect to the
purposes of subsection (a)(4) or (11).

App.55a
COMPLAINT OBJECTING TO DISCHARGE
(JULY 21, 2017)
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
________________________
In Re: JERRY DEWAYNE GADDY
________________________
SE PROPERTY HOLDINGS, LLC,

Plaintiff,
v.
JERRY DEWAYNE GADDY,

Defendant.

________________________
Chapter 7
Civil Action No. 17-01568

Plaintiff, SE Property Holdings, LLC, as Successor
by Merger to Vision Bank (“SEPH”), by and through
its undersigned counsel, hereby sues Debtor/Defendant,
Jerry Dewayne Gaddy (“Jerry Gaddy,” “Jerry,” or the
“Debtor”) seeking a declaration and a judgment in
this case that an obligation owed to SEPH is not dischargeable pursuant to 11 U.S.C. § 523(a)(2)(a) and
523(a)(6). Obligations owed to SEPH by the Debtor
are excepted from discharge to the extent described
below in the underlying Chapter 7 Case No. 17-01568

App.56a
(the “Chapter 7 Case”), if any, in this case for the
following reasons:
JURISDICTION AND VENUE
1. This Court has jurisdiction pursuant to 28
U.S.C. §§ 157 and 1334.
2. This is a core proceeding pursuant to 28
U.S.C. § 157(b)(2)(A), (I), and (J).
3. Venue is proper pursuant to 28 U.S.C. §
1409(a).
4. This is an adversary proceeding in which SEPH
is seeking to except a debt from Debtor’s discharge in
the Chapter 7 Case pursuant to 11 U.S.C. §§ 523(a)(2)
and (6), as well as a declaration of such pursuant to
28 U.S.C. § 2201 & 11 U.S.C. § 105.
5. Pursuant to Federal Rule of Bankruptcy Procedure 7001(6), this proceeding is governed by the
rules contained in Part VII of the Federal Rules of
Bankruptcy Procedure.
PARTIES AND RELEVANT NON-PARTIES
6. Debtor filed a voluntary Chapter 7 Petition
pursuant to Title 11 of the United Stated Bankruptcy
Code on April 26, 2017 (the “Petition Date”). The
Debtor is a citizen of the State of Alabama, residing
in Marengo County, Alabama.
7. Plaintiff SE Property Holdings, LLC, is an
Ohio limited liability company with its principal
place of business in Newark, Ohio. SE Property
Holdings, LLC, has one member, Park National Corporation, which is an Ohio corporation with its principal place of business in Newark, Ohio. Accordingly,

App.57a
SE Property Holdings, LLC is a citizen of the state of
Ohio. SE Property Holdings, LLC, is the successor
in interest to Vision Bank, pursuant to a merger
occurring in February of 2012.
8. Sharon Gaddy (“Sharon Gaddy” or “Sharon”)
is a citizen of the State of Alabama, residing in
Marengo County, Alabama.
9. Elizabeth Gaddy Rice (“Rice”) is a citizen of
the State of Alabama, residing in Marengo County,
Alabama.
10. Gaddy Electric & Plumbing, L.L.C. (“GEP”) is
an Alabama limited liability company with its principal
place of business in Marengo County, Alabama. Its
members are Sharon Gaddy and Elizabeth Gaddy
Rice.
11. Rembert, L.L.C. (“Rembert”) is an Alabama
limited liability company with its principal place of
business in Marengo County, Alabama. Its members
are Sharon Gaddy and Elizabeth Gaddy Rice.
12. SLG Properties, LLC (“SLG”) is an Alabama
limited liability company with its principal place of
business in Marengo County, Alabama. Its sole member
is Sharon Gaddy.
Facts
Basis of SEPH’s Claim Subject
to this Objection to Discharge
13. Water’s Edge, LLC (“Water’s Edge”) is an
Alabama Limited Liability Company formed for the
purpose of purchasing and developing a marina located
in Baldwin County, Alabama. Water’s Edge is indebted
to the Bank on two separate loans (the “Water’s Edge

App.58a
Loans”), which loans were guaranteed by Jerry Gaddy
and approximately thirty-six other individual investors
(the “Guarantors”).
14. Loan No. 98809 (the “First Water’s Edge
Loan”) is evidenced by a Promissory Note dated December 5, 2006, in the principal amount of $10,000,000.00
executed by Water’s Edge in favor of the Bank, as
later renewed, extended and/or modified. A true and
correct copy of the Promissory Note is attached
hereto as Exhibit A.
15. On or about November 28, 2006, Jerry Gaddy
executed a Continuing Unlimited Guaranty Agreement
guaranteeing payment of all sums due under the
First Water’s Edge Loan. A true and correct copy of
the Continuing Unlimited Guaranty Agreement is
attached hereto as Exhibit B.
16. On or about April 25, 2008, Jerry Gaddy
executed an Acknowledgement, Ratification and Consent, reaffirming his obligation under the Continuing
Unlimited Guaranty Agreement to guarantee payment
of all sums due under the First Water’s Edge Loan,
including a minimum principal increase of $2,500,
000.00. A true and correct copy of the Acknowledgement, Ratification and Consent is attached hereto as
Exhibit C.
17. Loan No. 98817 (the “Second Water’s Edge
Loan”) is evidenced by that certain Promissory Note
dated December 5, 2006, in the principal amount of
$4,500,000.00 executed by Water’s Edge in favor of
the Bank, as later renewed, extended and/or modified.
A true and correct copy of the Promissory Note is
attached hereto as Exhibit D.

App.59a
18. On or about November 28, 2006, Jerry Gaddy
executed a Continuing Limited Guaranty Agreement
guaranteeing payment of the Second Water’s Edge
Loan in an amount up to $84,392.00. A true and correct
copy of the Continuing Limited Guaranty Agreement
is attached hereto as Exhibit E.
19. On or about April 25, 2008, Jerry Gaddy
executed an Acknowledgement, Ratification and Consent, reaffirming his obligations under the Continuing
Limited Guaranty Agreement to guarantee payment
in an amount up to $84,392.00 of sums due under the
Second Water’s Edge Loan. A true and correct copy of
the Acknowledgement, Ratification and Consent is
attached hereto as Exhibit F.
20. To induce the Bank to loan Water’s Edge
$17,000,000.00, Jerry Gaddy submitted multiple
personal financial statements representing to the
Bank that his net worth was between $3,685,000 and
$4,753,000.
21. Jerry Gaddy submitted a personal financial
statement dated April 27, 2006 to the Bank in which
he represented that he had a personal net worth of
$4,753,000. A true and correct copy of the Gaddy’s
April 27, 2006 Personal Financial Statement is attached
hereto as Exhibit G.
22. Jerry Gaddy submitted a personal financial
statement dated August 15, 2007 to the Bank in
which he represented that he had a personal net
worth of $4,511,450. A true and correct copy of Jerry
Gaddy’s August 15, 2007 Personal Financial Statement
is attached hereto as Exhibit H.
23. Jerry Gaddy submitted a personal financial
statement dated December 15, 2008 to the Bank in

App.60a
which he represented that he had a personal net worth
of $3,685,000. A true and correct copy of the Gaddy’s
December 15, 2008 Personal Financial Statement is
attached hereto as Exhibit I.
24. By March 2009, it was clear that the Water’s
Edge development project would not be completed on
schedule. As a result, the Guarantors made capital
contributions to Water’s Edge to cover Water’s Edge’s
operating costs and maintain its interest payments
on the Water’s Edge Loans.
25. As early as March 13, 2009 (possibly earlier),
several Guarantors stopped paying their proportionate
share of these capital contributions, thus requiring
other Guarantors to cover these payments.
26. In May 2009, the first of several Guarantors
filed for bankruptcy relief.
27. On October 3, 2009, Jerry Gaddy and the
other Guarantors were notified by the Bank that in
the event of a default in the upcoming payments due
the Bank, that the Bank intended to take “legal action
to enforce contractual obligations of the borrower and
guarantors.” See October 3, 2009 email from Andrew
Braswell, attached hereto as Exhibit J.
28. On June 10, 2010, Water’s Edge defaulted on
the First Water’s Edge Loan and the Second Water’s
Edge Loan by failing to make the required payment
on the Loans. The Bank demanded payment from Jerry
Gaddy pursuant to his Water’s Edge Guaranties. True
and correct copies of the demand letters are attached
hereto as Exhibit K.
29. On October 11, 2010, the Bank filed a lawsuit
against Water’s Edge, Jerry Gaddy, and other Guaran-

App.61a
tors in the Circuit Court of Baldwin County in a matter
styled SE Property Holdings, LLC v. Water’s Edge,
LLC, et. al., 05-CV-2010-901862 (the “Water’s Edge
Litigation”).
30. On November 17, 2014, the court in the
Water’s Edge Litigation ruled in favor of SEPH on its
claims and against Jerry Gaddy and the other
Defendants on their counterclaims, cross-claims and
third-party claims.
31. On December 17, 2014, a judgment was
entered in the Water’s Edge Litigation in favor of the
Bank and against Jerry Gaddy in the amount of
$9,084,076.14 on the First Water’s Edge Loan, and
$84,392.00 on the Second Water’s Edge Loan. A true
and correct copy of the Judgment is attached hereto
as Exhibit L.
32. After the entry of judgment in favor of the
Bank and against Jerry Gaddy by the Circuit Court on
December 17, 2014, the Bank discovered that Jerry
Gaddy had transferred his membership interest in
Gaddy Electric & Plumbing, LLC to his wife and
transferred several parcels of real property to his
wife and daughter directly or through corporate entities
controlled by them in an attempt to place assets
beyond the reach of the Bank.
33. The judgment entered in the Water’s Edge
Litigation has not been satisfied.
34. On February 25, 2015, the Circuit Court of
Baldwin County entered a charging order against
Gaddy Electric & Plumbing, L.L.C. (“Gaddy Electric”).
A true and correct copy of the Order is attached
hereto as Exhibit M.

App.62a
Fraudulent Transfers of Personal Property
A.

Fraudulent Transfer of Membership Interest in
Gaddy Electric from Jerry Gaddy to Sharon
Gaddy in 2014.

35. On July 24, 2015, Robertson Bank responded
to a subpoena, revealing, for the first time, the
transfer of all of Jerry Gaddy’s 41% membership
interest in Gaddy Electric from Jerry Gaddy to Sharon
Gaddy. While the documents assigning the interest are
undated, the transfer purports to be effective December 15, 2014, just 27 days after the Court ruled in
SEPH’s favor and two days prior to the Water’s Edge
judgment being entered.
36. Based on a personal financial statement dated
February 13, 2014, provided by Jerry Gaddy and
Sharon Gaddy to Robertson Bank, the value of the
total membership interest in Gaddy Electric &
Plumbing, L.L.C. was $1,500,000.00. A copy of the
February 13, 2014 Personal Financial Statement
(redacted) is attached hereto as Exhibit N.
37. In a personal financial statement dated October 29, 2014, provided by Jerry Gaddy to the Bank,
the value of the total membership interest in Gaddy
Electric & Plumbing, L.L.C. was reported to be
$212,951.00. A copy of the October 29, 2014 Personal
Financial Statement (redacted) is attached hereto as
Exhibit O.
38. Jerry Gaddy continues to exert control over
the transferred property as the manager of Gaddy
Electric & Plumbing, L.L.C., despite the transfer of
his membership interest.

App.63a
39. Jerry Gaddy’s possession and control over
the transferred property is further evidenced by the
fact that following the transfer Gaddy Electric continued to make monthly payments on a personal loan
of his, make payments on personal investments and
make payments on hunting leases.
40. Upon information and belief, Jerry Gaddy was
either insolvent at the time of the above described
conveyance, or became insolvent as a result thereof.
41. As a result of this fraudulent transfer, the
Bank has been damaged by being deprived of assets
of Jerry Gaddy that could be used to satisfy the judgment entered in the Water’s Edge Litigation.
B.

Fraudulent Transfer of Membership Interest in
Gaddy Electric from Jerry Gaddy to Sharon
Gaddy in 2009.

42. On March 10, 2017, Sharon Gaddy responded
to SEPH’s First Set of Interrogatories, Requests for
Production, and Requests for Admission, revealing,
for the first time, the transfer of Jerry Gaddy’s 46%
membership interest in Gaddy Electric & Plumbing,
LLC to Sharon Gaddy on November 2, 2009. An
excerpt of Sharon Gaddy’s Responses to Interrogatories
is attached hereto as Exhibit P.
43. The November 2, 2009 Gaddy Electric transfer
resulted in Sharon Gaddy owning a 51% or controlling
membership interest in Gaddy Electric.
44. Jerry Gaddy’s possession and control over the
transferred property is further evidenced by the fact
that following the transfer Gaddy Electric continued
to make monthly payments on a personal loan of his.

App.64a
45. Jerry Gaddy was either insolvent at the time
of the above described conveyance, or became insolvent
as a result thereof.
46. As a result of this fraudulent transfer, the
Bank has been damaged by being deprived of assets
of Jerry Gaddy that could be used to satisfy the judgment entered in the Water’s Edge Litigation.
C.

Fraudulent Transfer of Membership Interest in
Rembert, LLC from Jerry Gaddy to Sharon Gaddy
and/or Elizabeth Gaddy Rice.

47. On February 28, 2017, Defendants served
their initial disclosures, revealing, for the first time,
the transfer of all of Jerry Gaddy’s membership
interest in Rembert, LLC from Jerry Gaddy to Sharon
Gaddy and/or Elizabeth Gaddy Rice.
48. Upon information and belief, Rembert, LLC
was worth more than $75,000.00 at the time of the
conveyance.
49. Jerry Gaddy continues to exert control over
the transferred property as the registered agent of
Rembert, L.L.C., despite the transfer of his membership
interest.
50. Upon information and belief, Jerry Gaddy
continues to use the assets of Rembert, L.L.C.
51. Jerry Gaddy was either insolvent at the time
of the above described conveyance, or became insolvent
as a result thereof.
52. As a result of this fraudulent transfer, the
Bank has been damaged by being deprived of assets
of Jerry Gaddy that could be used to satisfy the judgment entered in the Water’s Edge Litigation.

App.65a
D.

Fraudulent Transfer of Currency from Jerry
Gaddy to Gaddy Electric & Plumbing, LLC.

53. On March 3, 2017, Naheola Credit Union
responded to a nonparty subpoena revealing, for the
first time, the transfer of $293,945.51 from Jerry
Gaddy to Gaddy Electric & Plumbing, LLC on December 23, 2014, only 6 days after judgment was entered
against Jerry Gaddy in the Water’s Edge Litigation.
54. The transfer was made with actual intent to
hinder, delay, and defraud the Bank.
55. The transfer of $293,945.51 from Jerry Gaddy
to Gaddy Electric was fraudulent for the following
reasons:
a.

Jerry Gaddy did not receive any consideration
for the conveyance described hereinabove,
or any consideration Jerry Gaddy did receive
for the above described transfer was not
reasonably equivalent to the value of the
currency transferred.

c.

At the time of these conveyance, Jerry Gaddy
was indebted to the Bank in an amount in
excess of $9,000,000.00.

d.

Jerry Gaddy was insolvent or became
insolvent as a result of the transfer;

e.

The result of the conveyance was to place
assets beyond the reach of the Bank.

f.

Gaddy Electric & Plumbing, LLC is an insider
off Jerry Gaddy, i.e. it is a closely held company owned and controlled by Jerry Gaddy,
his wife Sharon Gaddy, and their daughter
Elizabeth Gaddy Rice;

App.66a
g.

The currency was transferred for an antecedent debt;

h.

Gaddy Electric & Plumbing, LLC had reasonable cause based on to believe that Jerry
Gaddy was insolvent on December 23, 2014
when it accepted the transfer.

56. As a result of this fraudulent transfer, the
Bank has been damaged by being deprived of assets
of Jerry Gaddy that could be used to satisfy the judgment entered in the Water’s Edge Litigation.
Fraudulent Conveyances of Real Property
E.

Fraudulent Conveyance of Real Property From
Jerry Gaddy to Rembert, LLC.

57. On October 30, 2009, Jerry Gaddy formed
Rembert, LLC, listing himself as registered agent
and using his home address (817 Carter Dr., Linden,
Alabama 36748 as its registered office).
58. Jerry Gaddy, Sharon Gaddy, and Elizabeth
Gaddy Rice were the initial members of Rembert,
LLC.
59. On October 16, 2009, just two weeks after the
Water’s Edge guarantors were notified by the Bank
that in the event of a default in the upcoming
payments due the Bank, that the Bank intended to
take “legal action to enforce contractual obligations
of the borrower and guarantors,” Jerry Gaddy conveyed
to Rembert, LLC (which was not actually formed until
October 30, 2009) by Warranty Deed for the alleged
consideration of “$100.00,” all his interest in two
parcels of real property (the “Rembert Conveyance”)
located in Marengo, County, Alabama. The property

App.67a
is more particularly described in the Warranty Deed
recorded in the Records of the Probate Office of
Marengo County on October 30, 2009, in Book 2009,
Page 728. A copy of the recorded Warranty Deed is
attached hereto as Exhibit Q.
60. The two parcels are further identified in the
tax assessor’s records as:

F.

a.

Parcel #17-07-35-0-000-006.0000, a 28 acre
parcel. A copy of the Marengo County Property Record Card is attached hereto as
Exhibit R.

b.

Parcel # 17-07-26-0-000-001.002, a 145 acre
parcel. A copy of the Marengo County Property Record Card is attached hereto as
Exhibit S.

Fraudulent Conveyance of Real Property from
Jerry Gaddy to Sharon Gaddy

61. On November 20, 2009, approximately one and
a half months after the Water’s Edge guarantors
were notified by the Bank that in the event of a
default in the upcoming payments due the Bank, the
Bank intended to take “legal action to enforce contractual obligations of the borrower and guarantors,”
Jerry Gaddy conveyed to Sharon Gaddy by Quitclaim
Deed for the alleged consideration of “$1.00,” all his
interest in three parcels of real property (the “Cahaba
Avenue Conveyance”) located in Marengo County,
Alabama. The three parcels are more particularly
described in the Quitclaim Deed recorded in the
Records of the Probate Office of Marengo County on
February 4, 2010, in Book 2010, Page 76. A copy of
the Quitclaim Deed is attached hereto as Exhibit T.

App.68a
62. The three parcels are further identified in
the tax assessor’s records at:

G.

a.

Parcel #12-09-32-0-001.000, a 28 acre parcel.
A copy of the Marengo County Property
Record Card is attached hereto as Exhibit U.

b.

Parcel #12-09-32-0-001.002, an 18 acre parcel.
A copy of the Marengo County Property
Record Card is attached hereto as Exhibit V.

c.

Parcel #12-09-32-1-004.000, a 6 acre parcel.
A copy of the Marengo County Property
Record Card is attached hereto as Exhibit W.

Fraudulent Conveyance of Real Property (110
Barley Avenue) from Jerry Gaddy to Elizabeth
Gaddy Rice on October 4, 2010.

63. On October 4, 2010 (one week before SEPH
sued Jerry Gaddy), for the alleged consideration of
“$100.00” Gaddy conveyed to his daughter Elizabeth
Gaddy Rice all his interest in a 7.41 acre parcel of
real property with a street address of 110 Barley
Avenue, Linden, Alabama (the “Barley Avenue Conveyance”). The property is more particularly described in
the Deed recorded in the Records of the probate
Office of Marengo County on October 6, 2010, in
Book 2010, Page 687. A copy of the Deed is attached
hereto as Exhibit X.
H.

Fraudulent Conveyances of Real Property (145
Industrial Park, Demopolis and 179 Industrial
Park Rd., Demopolis) from Jerry Gaddy to SLG
Properties, LLC on April 18, 2012.

64. Sharon L. Gaddy formed SLG Properties,
LLC on or about February 23, 2012 (16 months after

App.69a
SEPH sued Jerry Gaddy), listing the home address
(817 Carter Drive, Linden, Alabama 36748) she shares
with Jerry Gaddy as the registered office of the company.
65. On or about April 18, 2012, Jerry Gaddy
conveyed to SLG Properties, LLC by Warranty Deed,
for alleged “good and valuable consideration,” all his
interest in a 2.74 acre parcel of real property with a
street address of 145 Industrial Park, Demopolis,
Alabama (the “145 Industrial Park Conveyance”).
The property is more particularly described in the
Warranty Deed recorded in the Records of the Probate
Office of Marengo County on April 27, 2012, in Book
2012, Page 272. A copy of the Deed is attached hereto
as Exhibit Y.
66. The parcel is further identified in the tax
assessor’s records as Parcel #06-01-010-000-015-009,
a 2 acre parcel. A copy of the Marengo County Property Record Card is attached hereto as Exhibit Z.
67. On or about April 18, 2012, Jerry Gaddy
conveyed to SLG Properties, LLC by Warranty Deed,
for alleged “good and valuable consideration,” all his
interest in a 2.8 acre parcel of real property with a
street address of 179 Industrial Park, Demopolis,
Alabama (the “179 Industrial Park Conveyance”).
The property is more particularly described in the
Warranty Deed recorded in the Records of the Probate
Office of Marengo County on April 27, 2012, in Book
2012, Page 273. A copy of the Deed is attached hereto
as Exhibit AA. The property is further identified in
the tax assessor’s records as Parcel #06-01-01-0-000015-010, a 2 acre parcel. A copy of the Marengo
County Property Record Card is attached hereto as
Exhibit BB.

App.70a
Count One
Exception to Discharge Pursuant to
11 U.S.C. § 523(a)(2) for actual fraud
68. SEPH re-alleges the allegations contained in
Paragraphs 1-67 above.
69. The transfers of personal property described
above in Paragraphs 35-56 were actually fraudulent
as to SEPH as they were made to hinder SEPH’s
collection of its debt owed by Jerry Gaddy.
70. The transfers of real property described above
in Paragraphs 57-67 were also actually fraudulent as
to SEPH as they were made to hinder SEPH’s
collection of its debt owed by Jerry Gaddy.
71. The Debtor’s actual fraud in connection with
these fraudulent transfers is an exception to discharge to the extent of those transfers under 11
U.S.C. § 523(a)(2)(A).
WHEREFORE, for the foregoing reasons, SEPH
seeks confirmation, a declaration and/or a judgment
in this Adversary Proceeding that the Judgment
obtained in the Water’s Edge Litigation is non-dischargeable to the extent of the fraud under 11 U.S.C.
§ 523(a)(2)(A).
Count Two
Exception to Discharge Pursuant to
11 U.S.C. § 523(a)(6) for willful and malicious injury
72. SEPH re-alleges the allegations contained
in Paragraphs 1-71 above.
73. In making the fraudulent transfers of personal property described above in Paragraphs 35-56, the

App.71a
Debtor willfully and maliciously injured SEPH and/or
the property of SEPH.
74. In making the fraudulent transfers of real
property described above in Paragraphs 57-67, the
Debtor willfully and maliciously injured SEPH and/or
the property of SEPH.
75. The Debtor’s willful and malicious conduct
caused SEPH injury in connection with the fraudulent transfers, and such conduct creates an exception
to discharge to the extent of those transfers under 11
U.S.C. § 523(a)(6).
WHEREFORE, for the foregoing reasons, SEPH
seeks confirmation, a declaration and/or a judgment
in this Adversary Proceeding that the Judgment in
the Water’s Edge Litigation is non-dischargeable to
the extent of the malicious and willful fraud under
11 U.S.C. § 523(a)(6).
Count Three
Declaratory Judgment
76. SEPH re-alleges the allegations contained
in Paragraphs 1-75 above.
77. The Debtor lists SEPH on Schedule E/F in
the Chapter 7 Case. (Doc. 33.) Upon information and
belief, the Debtor includes the Judgment in the Water’s
Edge Litigation as such scheduled debt to be included
in his Chapter 7 Case and will or may seek to have
such debt discharged in the Chapter 7 Case.
78. As such, an actual case or controversy exists
on this issue, and SEPH seeks a declaration that any
and all such scheduled debt, including, but not
limited to, that amount set forth in the Judgment in

App.72a
the Water’s Edge Litigation is in fact non-dischargeable to the extent of the Debtor’s fraudulent
and malicious activity pursuant to 11 U.S.C.
§ 523(a)(2)(A) and 523(a)(6). See 28 U.S.C. § 2201 &
11 U.S.C. § 105.
79. This actual case and controversy is ripe for
determination, there being a substantial controversy,
the parties having adverse legal interests, and there
being sufficient immediacy and reality to warrant
the issuance of a declaratory judgment.
WHEREFORE, for the foregoing reasons, SEPH
seeks a declaration and/or a judgment in this Adversary
Proceeding that the Judgment in the Water’s Edge
Litigation is fully non-dischargeable pursuant to 11
U.S.C. § 523(a)(2)(A) and 523(a)(6) even after the
filing of the Chapter 7 Case by Debtor.
Respectfully submitted,
/s/ Richard M. Gaal
(GAALR3999)
Attorney for SE Property Holdings, LLC
OF COUNSEL:
MCDOWELL KNIGHT
ROEDDER & SLEDGE,
L.L.C. Post Office Box 350
Mobile, Alabama 36601
Telephone: (251) 432-5300
Fax: (251) 432-5303

App.73a
Defendant to be served:
Jerry Wayne Gaddy
817 Carter Drive
Linden, Alabama 36748
Jerry Wayne Gaddy
c/o Lee R. Benton
2019 Third Avenue North
Birmingham, AL 35203

App.74a
PLAINTIFF’S RESPONSE TO DEFENDANT’S
MOTION FOR JUDGMENT ON THE PLEADINGS
(NOVEMBER 21, 2017)
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE SOUTHERN DISTRICT OF ALABAMA
________________________
In Re: JERRY DEWAYNE GADDY
________________________
SE PROPERTY HOLDINGS, LLC,

Plaintiff,
v.
JERRY DEWAYNE GADDY,

Defendant.

________________________
Chapter 7
Case No. 17-01568

Adversary Proceeding No.: 17-00054
Plaintiff, SE Property Holdings, LLC, as Successor
by Merger to Vision Bank (“SEPH”), by and through
its undersigned counsel, hereby files its response to
the Defendant/Debtor Jerry Dewayne Gaddy’s
(“Gaddy”) motion for judgment on the pleadings pursuant to Federal Rule of Bankruptcy Procedure Rule
7012. Gaddy argues that SEPH fails to state a cause
of action for nondischargeability under either 11 U.S.C.
§ 523(a)(2)(A) or 11 U.S.C. § 523(a)(6), and thus Gaddy

App.75a
is entitled to a judgment as a matter of law based
solely on the pleadings. SEPH’s Complaint contained
numerous and detailed factual allegations regarding
Gaddy’s guarantee of debt owed to SEPH and Gaddy’s
fraudulent transfers that were made with the intent
to frustrate and hinder SEPH’s efforts to collect by
placing assets out of SEPH’s possible reach. For the
reasons stated below, Gaddy’s assertions are incorrect, and thus Gaddy is not entitled to a judgment on
the pleadings under Bankruptcy Rule 7012 and Rule
12(c) of the Federal Rules of Civil Procedure.
I.

Gaddy’s arguments related to the finality of
SEPH’s judgment are inappropriate in a Rule
7012 motion for a judgment on the pleadings.

Gaddy correctly identifies the standard for a Rule
12(c) motion for judgment on the pleadings. A court
must consider only the statements which appear in the
pleadings. See Hotel St. George Assoc. v. Morgenstern,
819 F. Supp. 310, 317 (S.D.N.Y. 1993). “The court
must accept as true all material facts alleged in the
non-moving party’s pleading, and . . . view those facts
in the light most favorable to the non-moving party.”
Perez v. Wells Fargo N.A., 774 F.3d 1329, 1335 (11th
Cir. 2014). Furthermore, “[i]f a comparison of the
averments in the competing pleadings reveals a
material dispute of fact, judgment on the pleadings
must be denied.” Id.
However, despite acknowledging that “the court
will consider only” the complaint and answer filed in
this case, see Doc. 16, at p. 2, Gaddy asserts an additional “fact” not set forth in the complaint: the judgment obtained by SEPH against Gaddy is not a final
judgment. This assertion by Gaddy is a key focus of

App.76a
Gaddy’s argument related to SEPH’s claim for nondischargeability under 11 U.S.C. § 523(a)(6). (See, e.g.,
Doc. 16, at ¶ 13, arguing that SEPH cannot have valid
lien supporting “malicious injury to property” claim
under § 523(a)(6).) This new assertion is outside the
pleadings, and SEPH does not agree with Gaddy that
the judgment SEPH obtained against him is not a
final judgment. Essentially, Gaddy has referenced
facts outside of the pleadings, which he himself admits
is improper. SEPH did not include a statement that
the judgment was not final in its pleadings precisely
because SEPH does not agree regarding that fact.
Therefore, to the extent Gaddy relies on the alleged
non-finality of the judgment, his motion must be
denied under the agreed-upon standard under which
the Court must analyze Gaddy’s motion for a judgment on the pleadings.
II.

SEPH has adequately stated a claim for relief
under 11 U.S.C. § 523(a)(2)(A)

Section 523(a)(2)(A) of the Bankruptcy Code provides:
A

discharge under section 727, 1141, 1228(a),
1228(b), or 1328(b) of this title does not discharge an individual debtor from any
debt— . . .
(2) for money, property, services, or an extension, renewal, or refinancing of
credit, to the extent obtained by—
(A) false pretenses, a false representation,
or actual fraud, other than a statement
respecting the debtor’s or an insider’s
financial condition. . . .

App.77a
(Emphasis added). As noted by Gaddy in his motion,
the Supreme Court has held that § 523(a)(2)(A)’s
“actual fraud . . . encompasses forms of fraud, like
fraudulent conveyance schemes, that can be effected
without a false representation.” Husky Int’l Elecs.,
Inc. v. Ritz, 136 S.Ct. 1581 (2016). SEPH has alleged
that Gaddy committed a fraudulent conveyance scheme
like the one discussed in Husky, and thus it has
adequately alleged the “actual fraud” element required
under § 523(a)(2)(A) pursuant to Husky. Furthermore,
not only has Gaddy transferred assets out of his
hands to his wife and daughter, but he has retained
the control over and use of many of those assets.
(See, e.g., Doc. 1, at ¶¶ 38, 44, 49, 55.) While his wife
and daughter are transferees of these transfers,
Gaddy has retained control and benefitted from the
ownership interests in his entities such that Gaddy
retains equitable ownership over those entities as a
result of his fraud. See 11 U.S.C. § 541(a)(1). Gaddy
has clearly received benefits from these transferred
assets, and in some cases has even had his own
personal loans paid by Gaddy Electric & Plumbing,
LLC. (Id. at ¶ 44.) In effect Gaddy is equitably also a
transferee of the transferred assets. He is thus in a
similar position to the debtor in Husky, who had
entities controlled by him receive fraudulently transferred assets from a transferor corporation also controlled by the debtor. See 116 S. Ct. at 1589. (“[T]he
recipient of the transfer—who, with the requisite
intent, also commits fraud—can ‘obtai[n]’ assets ‘by’
his or her participation in the fraud.”). Here, Gaddy
obtained continued use of the assets but also placed
them out of SEPH’s reach. He thus obtained benefits
and property as a result of his fraud. Without such

App.78a
fraud, the assets transferred would be subject to
SEPH’s collection remedies.
Other case law also supports the conclusion that
Gaddy’s fraudulent conduct, from which he has received
benefits by retaining control and deriving monetary
benefits from entities now “owned” by his wife and/or
daughter, is nondishchargeable under § 523(a)(2)(A).
See, e.g., In re Bilzerian, 413 F.3d 980, (11th Cir. 1996)
(holding that debtor who receives either indirect or
direct benefit as a result of fraud may have debt
excepted from discharge and noting that “granting a
debtor a discharge based solely on the fact that he or
she did not directly receive a benefit places a limitation on § 523 that is not apparent from the text of the
provision itself. Moreover, such a limitation would
provide a dangerous incentive for the sophisticated
debtor, who could circumvent the provision by creating
a shell corporation to receive the fruits of his or her
fraud.”) (emphasis added); In re Arm, 87 F.3d 1046,
1049 (9th Cir. 1996) (“[T]he indirect benefit to the
debtor from a fraud in which he participates is sufficient to prevent the debtor from receiving the benefits
that bankruptcy law accords the honest person.).
Gaddy, rather than create a shell corporation, has
essentially used his wife and daughter as shells
separating himself directly from the ownership in
the assets transferred. The effect of his conduct is
precisely the type of conduct the Eleventh Circuit
warned of in Bilzerian. Gaddy is still receiving the
benefits of his assets transferred away while not
allowing SEPH to reach such assets to satisfy its
debt. Therefore, SEPH respectfully asserts that this
Court should not bless Gaddy’s fraud by allowing
him to obtain a discharge.

App.79a
Furthermore, due to Gaddy’s continued control
and obtaining benefits from his fraud, Gaddy’s debt
to SEPH should be excepted from discharge from a
policy standpoint because fraudulent conveyance
schemes like the scheme put in place by Gaddy run
contrary to the openness and candor required of debtors in bankruptcy proceedings. Furthermore, avoidance
actions and other means of undoing such transfers are
costly and waste judicial resources. If a debtor commits
such schemes to the detriment of a creditor, it would
only make sense that the bankruptcy system would not
condone such dishonest and malicious behavior. See
Cohen v. de la Cruz, 523 U.S. 213, 217 (1998) (“The
Bankruptcy Code has long prohibited debtors from
discharging liabilities incurred on account of their
fraud, embodying a basic policy animating the Code
of affording relief only to an honest but unfortunate
debtor.”) (internal quotations omitted); In re Bilzerian,
100 F.3d at 891 (the courts “will not allow ‘the malefic
debtor [to] hoist the Bankruptcy Code as protection
from the full consequences of fraudulent conduct’”).
In support of his motion, Gaddy cites In re
Vanwinkle, 562 B.R. 671, 677-78 (Bankr. E.D. Ky. 2016)
and this Court’s decision in Bancorpsouth Bank v.
Shahid, Adv. Proc. No. 1603009, Doc. 47 (Bankr.
N.D. Fla. Nov. 3, 2016). However, in those cases, the
creditors seeking to discharge a debt had not raised
claims for fraudulent transfers. See In re Vanwinkle,
562 B.R. at 678. Furthermore, the courts there did
not address whether the debtors’ equitable ownership in the assets transferred satisfied § 523(a)
(2)(A)’s requirement that the debtor obtain property
by actual fraud. Here, SEPH has brought fraudulent
transfer claims against Gaddy, and was only unable

App.80a
to reduce them to judgment due to Gaddy’s bankruptcy
filing. Furthermore, the cases cited by Gaddy addressed
post-judgment fraudulent conveyance schemes rather
than the prejudgment (and even pre-default) transfers
made by Gaddy at issue here. See, e.g., In re Vanwinkle, 562 at 678 (“The Plaintiffs’ allegations address
post-judgment fraud that may be actionable, but not
through § 523(a)(2)(A) alone.). This Court in Shahid
specifically stated that, “[t]he legal issue is whether
the debtor’s alleged fraudulent transfers and other
actions taken after the judgments will support a
claim that the judgments are non-dischargeable pursuant to Bankruptcy Code § 523(a)(2)(A) and/or (6).”
(Shahid, Adv. Proc. No. 16-03009, Doc. 47, at p. 1.)
Thus, those cases do not adequately address the situation here and are distinguishable such that the Court
should not consider those opinions as binding when
determining Gaddy’s motion.
While Gaddy highlights that the debtor in Husky
was the transferee of fraudulent conveyances and not
the transferor, there are two issues with this attempted
distinction. First, as discussed above, Gaddy was a
transferee of assets given that he has retained control
and the benefits of his ownership of the assets transferred. Secondly, even a transferor should be subject
to § 523(a)(2)(A) to the extent of their fraud. As the
Seventh Circuit has stated
[It would be] paradoxical if . . . the [transferee] could not discharge her fraud debt in
bankruptcy, the [transferor] could have discharged the same debt had he declared
bankruptcy. [Section 523(a)(2)(A)] does not
mean this. What is true is that if [the transferor] had merely defaulted on his original

App.81a
debt to [the creditor], which so far as appears
was not created by a fraud, and later declared
bankruptcy, that debt would have been dischargeable. If, however, he had rendered
the debt uncollectible by making an actually
fraudulent conveyance of the property . . . his
actual fraud would give rise to a new debt,
nondischargeable because created by fraud,
just as in the case of the [transferee], his
accomplice in fraud. But it would be a new
debt only to the extent of the value of the
[property] that he conveyed, for that would
be the only debt created by the fraud itself.

McClellan v. Cantrell, 217 F.3d 890, 895 (7th Cir. 2000).

It would promote the integrity of the bankruptcy
system not to allow a transferor to discharge his debts
after fraudulently conveying assets away. In any event,
Gaddy here should be classified as a transferee of the
assets given his continued control and benefit from
those assets. But even if the Court views Gaddy as
merely a transferor that should not mean that Gaddy’s
debt to SEPH is non-dischargeable.
Because SEPH has adequately alleged that Gaddy
committed actual fraud against it and that Gaddy
did so knowingly and intentionally to deceive SEPH
to SEPH’s injury, SEPH’s § 523(a)(2)(A) claim should
survive the motion for judgment on the pleadings.1
1 Discovery is not yet underway in this case, and it would be
prudent to allow SEPH discovery regarding Gaddy’s assets and
his fraudulent retention of benefits from and equitable ownership in those assets. If the Court grants Gaddy’s motion now,
Gaddy will be able to avoid the consequences of his fraud. Such
an undesirable result should not be allowed at this early stage
of the proceedings.

App.82a

See Matter of Johnson, No. 09-00240-TOM7, 2017 WL
1839159, at * 9 (Bankr. N.D. Ala. May 5, 2017); see
also In re Bloemendaal, Adv No. 16–00047, 2016 WL
7852312 (Bankr. D. Mont. Dec. 22, 2016) (plaintiff
stated plausible claim against transferor of alleged
fraudulently conveyed assets). Furthermore, Gaddy’s
continued use and control over the transferred assets
while also having those assets technically out of his
hands constitutes a benefit that satisfies the requirement that Gaddy obtain “money [or] property” by
actual fraud. See 11 U.S.C. § 523(a)(2)(A).
III. SEPH has adequately stated a claim for relief
under 11 U.S.C. § 523(a)(6)
Section 523(a)(6) provides: “[a] discharge under
section 727, 1141, 1228(a), 1228(b), or 1328(b) of this
title does not discharge an individual debtor from
any debt- . . . (6) for willful and malicious injury by
the debtor to another entity or to the property of
another entity.” The Eleventh Circuit has held that,
“[a] debtor is responsible for a ‘willful’ injury when
he or she commits an intentional act the purpose of
which is to cause injury or which is substantially
certain to cause injury.” In re Kane, 755 F.3d 1285,
1293 (11th Cir. 2014). Furthermore, § 523(a)(6) does
not require a showing of tortious conduct; so long as
the debtor shows a willful and malicious act. Id. at
1296 (citing In re Williams, 337 F.3d 504, 510 (5th
Cir. 2003) (“[A] knowing breach of a clear contractual
obligation that is certain to cause injury may prevent
discharge under Section 523(a)(6), regardless of the
existence of separate tortious conduct.”)). The Eleventh
Circuit has held that fraudulent transfer schemes such
as the one implemented here by Gaddy can, if done
willfully and maliciously, be excepted from discharge

App.83a
under § 523(a)(6). See In re Jennings, 670 F.3d 1329,
1332-34 (11th Cir. 2012) (upholding district court’s
determination that fraudulent transfer judgment was
nondischargeable where “the evidence in the record
showed that Janice transferred Shoreview willfully
and with malice. She knew that the purpose of the
transfer was to keep Shoreview out of the reach of
creditors. She was acutely aware of [the underlying
debt]”). The Husky Court also recognized that a fraudulent conveyance scheme can give rise to § 523(a)(6)
nondischargeability claim as well as a § 523(a)(2)(A)
claim. See 136 S. Ct. at 1588 (“[D]ebtors who commit
fraudulent conveyances . . . could likewise also inflict
‘willful and malicious injury’ under § 523(a)(6).”).
In his motion, Gaddy essentially argues that
because the transfers occurred before the judgment
was entered and because that judgment is allegedly
not final, SEPH fails to state a claim under § 523(a)(6)
because SEPH did not have a property interest that
would have been injured by Gaddy’s fraudulent transfer
scheme. However, Gaddy’s argument fails for a number
of reasons. First, as noted above, Gaddy’s argument
relies in part on Gaddy’s assertion that SEPH’s judgment against him is not final as to support a valid
judgment lien. This assertion is improper at this
stage, and SEPH’s judgment should be considered final
by this Court in determining whether to grant the
motion for judgment on the pleadings.
More importantly, Gaddy completely ignores and
fails to address the full language of the statute. For
example, Gaddy concludes that, “[b]ecause the alleged
fraudulent transfer did not ‘willfull [sic] or maliciously’
injure SEPH’s property, SEPH cannot recover on its
claims under § 523(a)(6).” However, Gaddy has ignored

App.84a
that § 523(a)(6) also excepts from discharges debts
“for willful and malicious injury by the debtor to
another entity.” Instead, he focuses on the property
aspect of the subsection. SEPH only has to allege
that it or its property suffered an injury due to the
malicious and willful conduct of Gaddy. While the
Court in Jennings noted that the judgment creditor
there had obtained a fraudulent transfer judgment,
the Eleventh Circuit noted the fraudulent transfer to
make it clear that there had been an injury to the
creditor’s property. See 670 F.3d at 1333. (“And
because here Maxfield obtained a fraudulent transfer
judgment, complete with a finding that Janice intended
to prevent Maxfield from satisfying his personal
injury claim, we conclude that Janice’s transfer was
an injury to Maxfield’s property.”) Furthermore, the
Eleventh Circuit in Kane cited Fifth Circuit law that
an intentional breach of contract may prevent discharge under § 523(a)(6). See 755 F.3d at 1296 (citing
In re Williams, 337 F.3d at 510)). Gaddy, rather than
transfer assets to pay off his debt to SEPH when
Water’s Edge went into default, intentionally transferred assets out of his hands. He intentionally and
knowingly breached his contract and then put assets
out of SEPH’s reach by a malicious scheme of fraudulent transfers.
SEPH has alleged it has suffered an injury due
to the willful and malicious conduct of Gaddy, as Gaddy
intentionally injured SEPH’s chances of collecting on
any future judgment by engaging in a detailed plot to
shift assets out of his name in hindrance of SEPH’s
collection. While it is true that the underlying fraudulent transfer claims of SEPH have not been reduced
to judgment, SEPH has brought those claims, and

App.85a
has been unable to reduce them to judgment due to
Gaddy’s bankruptcy filing. It is clear that under
Eleventh Circuit law any fraudulent transfer judgment SEPH obtains against Gaddy would be nondischargeable if Gaddy made such fraudulent transfers
with a willful and malicious intent. It would promote
fraud and opportunistic bankruptcy filings if SEPH’s
debt is rendered dischargeable based on the lack of
judgment for fraudulent transfer where the debtor
has prevented such judgment. See Eldridge v. Waugh,
198 B.R. 545, (E.D. Ark. 1995) (finding that claims
for fraudulent transfers were non-dischargeable even
though creditors had not obtained judgment on those
fraudulent transfer claims). The allegations of the
Complaint are detailed and numerous, and they
state a plausible claim for relief under § 523(a)(6).
While Gaddy cites In re Best, 109 F. App’x 1, 6
(6th Cir. 2004), Shahid, and In re Pouliot, 196 B.R.
641, 653 (Bankr. S.D. Fla. 1996) as all supporting the
proposition that willfully disposing of assets to the
detriment of a creditor such as SEPH does not
constitute willful and malicious injury, those cases run
counter to the Eleventh Circuit’s holding in Jennings.
The Eleventh Circuit has specifically held that willful
and malicious fraudulent transfer schemes are a type
of claim that is subject to nondischargeability under
§ 523(a)(6). Gaddy, in anticipation of a potential
future default given the struggling position of Water’s
Edge, made the first transfer of property on October
16, 2009. Gaddy continued making fraudulent transfers
after being sued by SEPH and after SEPH obtained
its judgment. Such actions constitute malicious and
willful acts made with an intent to harm SEPH.
While this Court in Shahid noted that the creditor

App.86a
there had not reduced its fraudulent transfer to judgment and thus distinguished Jennings, in light of the
fact that the Court did not address the “injury to an
entity” and focused instead on the injury to property
element of 523(a)(6), SEPH respectfully requests this
Court deny Gaddy’s motion for judgment on the
pleadings.
IV. SEPH is entitled to a declaratory judgment
Gaddy’s argument with regard to SEPH’s claim
for declaratory judgment stated in the complaint relies
solely on the alleged failure of SEPH to state claims
under § 523(a)(2)(A) or § 523(a)(6). For the reasons
discussed above, SEPH’s claims are plausible and
should survive Gaddy’s motion for a judgment on the
pleadings since Gaddy is not entitled to a judgment
as a matter of law. Therefore, SEPH claims seeking a
declaration of non-dischargeability under either of
the applicable subsections of § 523 should survive
the motion, as well.
V.

Conclusion

Gaddy’s arguments contain improper references
to alleged facts that are outside of the pleadings and
attempts to improperly have the Court consider such
allegations in his motion that is restricted to only the
pleadings in this case. Furthermore, Gaddy, prior to
SEPH’s obtaining a judgment against him, willfully
and with a malicious intent to injure SEPH, committed
numerous fraudulent transfers seeking to injure
SEPH’s collection efforts before they could get off the
ground. As the Supreme Court has recognized that
fraudulent transfer schemes constitute “actual fraud”
under § 523(a)(2)(A), such pre-judgment scheming by

App.87a
Gaddy supports a claim for non-dischargeability under
both § 523(a)(2)(A) and § 523(a)(6). Therefore, SEPH
respectfully requests that the Court deny Gaddy’s
motion for judgment on the pleadings.
Respectfully submitted,
/s/ Richard M. Gaal
(GAALR3999)
Attorney for SE Property Holdings, LLC
OF COUNSEL:
MCDOWELL KNIGHT
ROEDDER & SLEDGE,
L.L.C. Post Office Box 350
Mobile, Alabama 36601
Telephone: (251) 432-5300
Fax: (251) 432-5303

